<html>
<title> - CONSTRUCTION COSTS AND DELAYS IN THE U.S. EMBASSY IN KABUL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
       CONSTRUCTION COSTS AND DELAYS IN THE U.S. EMBASSY IN KABUL

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2015

                               __________

                           Serial No. 114-144

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-880 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                Sean McLaughlin, Majority Staff Director
      Art Arthur, Subcommittee on National Security Staff Director
                         Cordell Hull, Counsel
                           Sarah Vance, Clerk
                 David Rapallo, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 9, 2015.....................................     1

                               WITNESSES

Mr. Michael J. Courts, Director, International Affairs and Trade, 
  U.S. Government Accountability Office
    Oral Statement...............................................     6
    Written Statement............................................     7
Ms. Lydia Muniz, Director, Bureau of Overseas Buildings 
  Operations, U.S. Department of State
    Oral Statement...............................................     7
    Written Statement............................................     9
The Hon. Gregory B. Starr, Assistant Secretary, Bureau of 
  Diplomatic Security, U.S. Department of State
    Oral Statement...............................................     9
    Written Statement............................................    10
Mr. Jarrett Blanc, Principal Deputy Special Representative for 
  Afghanistan and Pakistan, U.S. Department of State
    Oral Statement...............................................    10
    Written Statement............................................    12
The Hon. Donald S. Hays, Senior Inspector, Office of The 
  Inspector General, U.S. Department of State
    Oral Statement...............................................    13
    Written Statement............................................    14
Mr. Michael L. Gulino, President and Chief Executive Officer, 
  AEGIS LLC.
    Oral Statement...............................................    15
    Written Statement............................................    16

                                APPENDIX

Opening Statement of Chairman Jason Chaffetz.....................    70
Questions for the Record to Assistant Secretary Gregory Starr, 
  submitted by Chairman Chaffetz and Ranking Member Cummings.....    74
Questions for the Record to Director Lydia Muniz, submitted by 
  Chairman Chaffetz..............................................    79
Letter to the Hon. John Kerry from Chairman Mica.................    83


       CONSTRUCTION COSTS AND DELAYS IN THE U.S. EMBASSY IN KABUL

                              ----------                              


                         Thursday, July 9, 2015

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:03 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, DesJarlais, Gowdy, Farenthold, Meadows, 
DeSantis, Buck, Walker, Blum, Russell, Carter, Grothman, 
Palmer, Cummings, Maloney, Lynch, Connolly, Duckworth, Kelly, 
Lawrence, Watson Coleman, Plaskett, Welch, and Lujan Grisham.
    Chairman Chaffetz. Committee on Oversight and Government 
Reform will come to order. I appreciate you being here as we 
have a hearing today regarding the construction costs and 
delays at the United States Embassy in Kabul, Afghanistan.
    Without objection, the chair is authorized to declare a 
recess at any time.
    Appreciate being here. This is an important topic. We have 
so many Americans who have given their lives in Afghanistan, 
who have sacrificed away from their families to serve the 
United States of America and our interests there. We have a 
duty and an obligation to make sure that they are well housed, 
that they are safe, that they are secure, that they are able to 
do their jobs and their duty, and yet after more than a decade 
of fighting and great work by our United States military, we 
are deeply concerned about what the State Department is doing 
or hasn't done in Kabul to make sure that our Embassy facility 
there is in proper order.
    The State Department has invested or plans to invest more 
than $2.17 billion in facilities. It probably makes it the 
single most expensive facility that we have around the globe; 
and if not the most expensive, certainly one of the most 
expensive.
    Is there a threat? Yes, there is a threat there. It is a 
very dangerous place. Is it safe? No, it is not safe there. Did 
we hire the right contractors to put in place to make this 
happen? Evidently not. We've had to readjust contracts, we've 
had to dismiss some people along the way. The budget that was 
projected has now gone up more than 27 percent. Is this project 
and this buildout in Kabul on time? No, it's not. It was 
supposed to be open last year. Now it looks like it might be 
2017, some 3 years behind schedule. Is there a strategic plan? 
No. According to the GAO, there is not. Are there standards in 
place? No, there are not, according to the GAO. Is there a 
security plan for temporary facilities in place? No, there is 
not.
    And so after more than a decade, this seems to be a fiasco. 
It is a mess. And one of the core questions is did we learn 
what we were supposed to learn when we were in Iraq? Evidently 
not.
    Keeping Americans safe who work in the Foreign Service in 
Kabul, Afghanistan, is a constant challenge. Just last week, 
Taliban militants attacked a NATO convoy just 500 yards from 
the United States Embassy in Kabul. There is an article in the 
Washington Post dated July 7 saying a suicide bomber rammed a 
car and an armored vehicle that was part of a NATO convoy here 
in the Afghan capital on Tuesday, the second such attack 
against coalition troops in a week. The attacks come a week 
after militants targeted a coalition convoy near the United 
States Embassy, killing 2 Afghan civilians and wounding nearly 
30. The week before, militants stormed the Afghan parliament in 
Kabul in broad daylight in what appears to be a coordinated 
attack.
    These incidents make clear we have to ensure our brave men 
and women serving in these hostile environments are safe, and 
one of the best ways to ensure their safety is to provide 
secure facilities for them to perform their diplomatic 
missions, but after an investigation by the GAO, are they safe? 
No, they're not, and that's not acceptable.
    Due to the mismanagement by the State Department, however, 
it's not happening in Kabul, and as a result, American 
diplomatic staff in Afghanistan are being exposed to 
unnecessary danger.
    Last July, the Government Accountability Office reviewed 
the construction of the Kabul Embassy facility and found the 
State Department failed to properly acknowledge known risks. 
These risks include the award of a contract for work before the 
contract site was even acquired, an unrealistic schedule for 
work to be completed under, changes in the number of staff at 
the complex, and changes in the design of the building and 
security requirements.
    Again, temporary facilities don't even have a security plan 
at this point. And as a result of these failures, construction 
would take more time, cost more money, leaving Embassy staff 
less secure in temporary facilities. We would lay these out in 
even greater specificity, but we would not want to give the 
enemy an attack plan, but there are vulnerabilities, and we 
have to address those.
    In May, the GAO once again reviewed the construction of the 
new Embassy complex in Kabul, and once again, the review 
identified a number of significant but preventable problems. 
The lack of planning by the State Department resulted in cost 
overruns and delays. Construction is now projected to come in 
at least 27 percent over budget and more than 3 years behind 
schedule. Part of the project was originally expected to cost 
$625 million. It is now estimated to cost at least $792 
million. Because the State Department failed to properly plan 
for the project, it's continuing to negotiate with its 
contractor, so the current cost overruns could become even 
larger.
    One of the factors causing these delays and cost overruns 
is the Department's failure to follow its own directive to have 
a strategic facilities plan. As its name implies, a strategic 
facilities plan outlines how a particular facility will be 
developed and used. The need for a strategic facilities plan is 
especially critical for facilities like Kabul, where there is a 
high turnover in personnel.
    One the things highlighted in the GAO report is that there 
are constantly turnovers in personnel. And if you don't have a 
plan, a new person coming in has a large and long learning 
curve.
    The State Department recently rescinded the requirements 
for the development of a strategic plan for any facility, which 
was a requirement that had been in place since 1990. So because 
the State Department's poor planning and the use of temporary 
facilities where Americans must live and work, they will 
continue indefinitely in Kabul. In fact, amazingly, the State 
Department recently requested an additional $124 million for 
temporary facilities. It is unclear why State didn't do a 
better job planning for permanent and secure buildings, which 
resulted in the wasting of taxpayer dollars on temporary 
facilities. It appears, at least to me, that the effort to move 
towards temporary facilities is a way to get around some of the 
requirements that need to go into good and better planning.
    Not only does State not properly plan for permanent 
facilities, it also has no standards for temporary facilities. 
The State Department's own actions in Kabul make it clear how 
critical such standards are. In its fiscal year 2008 budget 
request, State expressed to Congress concerns about the threat 
to the Kabul facility posed by incoming weapons fire. However, 
as the GAO pointed out, quote, ``The only secure protection 
measures specified in the 2009 contract for temporary housing 
was shatter-resistant window film,'' end quote. That's it, a 
little film on the windows. I'm no expert, but I don't think 
shatter-resistant windows can stop a bullet, grenade, an RPG 
and whatnot, and yet we ask our Americans to live there in this 
high-threat environment.
    In contrast, State contracted for the temporary offices to 
have a higher standard level of security and ballistic 
protection on the temporary housing that it built. This means 
that employees were safer working 24 hours a day rather than 
returning to their housing, where they should be able to rest, 
relax, and be safe.
    The lesson here is clear. When there are no standards or 
guidance, the results are inconsistent and Americans are 
unsafe. We have to do a better job of getting our folks into 
safer, new facilities as soon as possible without incurring 
additional costs: $2 billion, and you're still requesting 
temporary facilities with no standards, no protection. We did 
not learn the lessons in Iraq, and that is a crying shame.
    We look forward to having this hearing and hearing the 
answers and responses to that, but now I'd like to recognize 
the ranking member, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    As I listened to your statement, I just sat here and said 
to myself: We're better than that. We're better than this.
    And listening to your answers to the questions that you 
presented, I think there's a lot to be discussed here this 
morning, so I'm glad that you're holding this very important 
hearing on the U.S. Embassy in Afghanistan.
    I'd like to make three main points that I think we all can 
agree on. First and foremost, the safety of United States 
personnel serving overseas is a top national security priority, 
and it's critical to our country's interests throughout the 
entire world.
    Second, we recognize that the urgency of rapidly securing 
U.S. facilities abroad may cost more for faster results. 
However, cutting corners may have the opposite effect, and 
careful, very careful stewardship of taxpayer funds is critical 
to maximizing the protection of U.S. personnel because any 
dollar wasted is a dollar that cannot be used to protect our 
personnel abroad.
    Kabul is one of the most dangerous places on the face of 
the Earth. The State Department ranks it as one of the most 
high-threat, high-risk locations for United States personnel. 
The men and women who serve our country in Afghanistan 
recognize these risks, and it is our job to honor their service 
by taking all appropriate steps to provide secure facilities 
for their work.
    In 2008 and 2009, the United States rapidly increased the 
number of personnel in Afghanistan to meet our Nation's 
military and foreign policy goals, first under the Bush 
administration and then under the Obama administration. This, 
and I quote, ``surge,'' end of the quote, as it was called, 
required facilities for United States troops and civilian 
personnel, including those working side by side in provincial 
reconstruction, the government--governance and stability 
efforts.
    Both Republicans and Democrats supported the surge. For 
example, Senate Armed Services Committee Chairman John McCain 
argued that a surge was, and I quote, ``vitally needed,'' end 
of quote, in Afghanistan and that delays would put American 
lives at risk.
    This dramatic increase in personnel created a difficult 
challenge for State Department officials planning for facility 
and security requirements. On one hand, they had to increase 
the United States footprint on the ground in a safe and secure 
way. On the other hand, they did not want to repeat the same 
mistakes that were made in Iraq, where the United States 
compound became a massive, expensive fortress, even as U.S. 
presence subsided.
    According to the Government Accountability Office, which 
has an official testifying here today, and I quote, ``The 
dynamic and unpredictable operating environment of Afghanistan 
has produced changing facility needs that have continually 
outpaced existing capabilities at the post,'' end of quote. GAO 
also cited a senior State Department management official who 
explained the effects of this rush to accommodate the surge. 
State did not fully follow its cost and risk policies in part 
of the urgency of the Embassy's facility needs, the security 
environment, and challenges supporting the surge and Embassy 
staffing that was occurring. Despite this urgency, however, GAO 
also found that the State Department could have and should have 
planned better. Could have and should have, but didn't.
    According to GAO, the State Department contributed to 
construction delays and cost increases by failing to follow its 
own risk assessment and planning policies. There's something 
awfully wrong with that picture.
    The GAO also found that the Department's original contracts 
did not include adequate security measures for temporary 
facilities. This led to inconsistent security measures, more 
contract modifications, increased costs, and further delays, 
according to GAO.
    Finally, Mr. Chairman, I want to thank you for agreeing to 
my request to invite Aegis here today. The people we hire and 
train to protect our facilities are just as important to our 
security as the walls we build. This company provides security 
at our facilities in Afghanistan under a contract that is 
scheduled to run through 2017 at a projected cost of $723 
million.
    In October 2014, the State Department's Office of Inspector 
General issued a report with some very troubling findings. The 
IG found that Aegis lacked required documentation showing that 
its personnel underwent mandated security investigations and 
training. That's the same company getting $723 million. The IG 
also found that Aegis billed the government for more than $8 
million in questionable costs, including through the use of 
prohibited invoices. I am curious to learn what has Aegis 
learned about billing and what personnel they have in place, 
considering they're getting $723 million of hard-earned 
taxpayer dollars.
    The IG also found that Aegis held the passports--and this 
is particularly troubling--of third-country nationals longer 
than necessary, raising concerns about the company's compliance 
with regulations about trafficking in persons. That is of great 
concern to me.
    In the past, our committee has investigated the actions of 
private security contractors in Iraq, where we witnessed 
shocking fraud and abuse. The current IG report does not 
include findings of nearly the same magnitude, but these are 
important areas that we would like Aegis to explain and explain 
thoroughly. We understand that some of these issues may have 
been addressed, and we thank Mr. Gulino for being here today.
    Our goal is to make sure we carry forward our past 
oversight to ensure that those lessons have in fact been 
learned and anything that needed to be corrected was corrected 
or is being corrected.
    And, with that, Mr. Chairman, I thank you again for this 
hearing, and I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I'll hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    We'll now recognize our panel of witnesses. We're pleased 
to welcome Mr. Michael Courts, Director of International 
Affairs and Trade at the United States Government 
Accountability Office. Appreciate the work that you and your 
staff do and appreciate your participation here.
    We're also pleased to have Ms. Lydia Muniz, is the Director 
of Bureau of Overseas Building Operation at the United States 
Department of State. We appreciate you coming before our 
committee again.
    The Honorable Gregory Starr, Assistant Secretary of the 
Bureau of Diplomatic Security at the United States Department 
of State, a long-time servant at the State Department, and we 
appreciate your participation here today.
    Mr. Jarrett Blanc, Principal Deputy Special Representative 
for Afghan and Pakistan at the United States Department of 
State.
    The Honorable Donald Hays, senior inspector at the Office 
of the Inspector General at the United States Department of 
State.
    And Mr. Michael Gulino, president and chief executive 
officer of Aegis, LLC. Again, welcome all.
    Pursuant to committee rules, witnesses are to be sworn 
before they testify, so if you will please rise and raise your 
right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Please be seated.
    And let the record reflect that all witnesses answered in 
the affirmative.
    In order to allow time for discussion, we would appreciate 
it if you would limit your testimony to 5 minutes. Your entire 
written record will be made part of the record.
    With that, we would like to begin with Mr. Courts.
    You're now recognized for 5 minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF MICHAEL J. COURTS

    Mr. Courts. Good morning, Mr. Chairman, Ranking Member 
Cummings, and members of the committee. I'm pleased to be here 
this morning to discuss a number of challenges related to the 
State Department's construction efforts at the U.S. Embassy in 
Kabul, Afghanistan. This testimony is based on a GAO report 
dealing with the subject that we issued in May of this year. 
This work is part of a series of GAO engagements to review 
State's efforts to manage construction and the efficiency and 
effectiveness of other aspects of its operations overseas.
    GAO was asked to testify this morning on the extent to 
which construction costs and schedules have changed, State's 
use of temporary facilities on the Kabul Embassy compound, and 
State's planning for projected embassy facility needs in the 
future.
    The primary message of my testimony this morning is that 
costs have risen and schedules have been extended significantly 
for two construction contracts that State awarded in 2009 and 
2010, and further cost increases are likely. State has also 
built numerous temporary facilities in Kabul and will continue 
to use them for the foreseeable future, but it lacks specific 
security standards for them. Further, State's lack of strategic 
facilities planning has led to coordination challenges and 
could lead to further problems as State makes additional 
investments to meet its future facility needs in Kabul.
    My first point is that costs for the two construction 
contracts have increased by about 27 percent from about $625 
million to almost $793 million. The projected completion of 
these projects has been delayed by over 3 years and is now 
slated for the fall of 2017. State didn't follow its own cost 
containment and risk assessment policies for those contracts, 
resulting in lost opportunities to mitigate risks. When these 
risks, such as delays in the sequencing of the two contracts, 
eventually materialized, they led to increased costs and 
extended schedules. As of March 2015, State and one of its 
contractors were still negotiating the value of several 
potential contract changes that will likely result in further 
increased costs.
    My second point is that State has billed over $100 million 
in temporary buildings to meet space needs in the Kabul Embassy 
compound, but it has no security standards that are 
specifically tailored to these types of facilities. Lacking 
specific standards or other guidance to guide such 
construction, State inconsistently applied alternative security 
measures that resulted in insufficient and differing levels of 
security for temporary offices and housing. State subsequently 
took corrective action that increased cost and extended 
schedules. State likely paid more than it would have had the 
security requirements been included in the original contract.
    My final point is that State plans additional capital 
construction investments to address interim and future facility 
needs in Kabul, and it needs to improve its planning for these 
efforts. The post's current facility needs stem primarily from 
changing circumstances inherent to the operating environment in 
Kabul, including changes in the security situation and new 
capabilities that will be required as a result of the drawdown 
of the U.S. military there.
    While stakeholders within State are working to identify, 
prioritize, and address the post facility needs, their efforts 
lack a strategic facilities planning approach. This has 
inhibited coordination and undermined the continuity necessary 
to address the Embassy's emergent needs.
    In summary, pursuing multiyear construction on an 
operational embassy compound in a dynamic and dangerous 
environment such as Afghanistan presents distinct challenges 
and considerable risk. With construction investments in Kabul 
currently projected to exceed $2 billion and likely to increase 
further, addressing the challenges GAO has identified should be 
a high priority.
    Mr. Chairman and Ranking Member Cummings, this concludes my 
prepared remarks. I'd be happy to address any questions that 
you may have.
    [Prepared statement of Mr. Courts follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/construction-
costs-and-delays-at-the-u-s-embassy-in-kabul/
    Chairman Chaffetz. Thank you, Mr. Courts.
    Ms. Muniz, you're now recognized for--am I pronouncing your 
name right?
    Ms. Muniz. Yes.
    Chairman Chaffetz. Close enough?
    Ms. Muniz. Yes. Close enough.
    Chairman Chaffetz. You're now recognized for 5 minutes. 
Tell me exactly how I should say it.
    Ms. Muniz. Muniz.
    Chairman Chaffetz. Muniz. I will improve. Thank you. You're 
now recognized for 5 minutes.

                    STATEMENT OF LYDIA MUNIZ

    Ms. Muniz. Chairman Chaffetz, Ranking Member Cummings, and 
members of the committee, I appreciate the opportunity to 
appear before you today to discuss the U.S. Department of 
State's construction projects in Kabul, Afghanistan.
    From the beginning, the goal has been and continues to be 
to deliver permanent, safe, and secure facilities to support 
those serving in Afghanistan. The United States reopened its 
Embassy in Afghanistan in December of 2001 using the existing 
1971 chancery building.
    In 2005, OBO completed a new office building, three new 
residential buildings, and support facilities to sustain the 
growing needs of the Embassy.
    In fiscal year 2009 and 2010, OBO awarded two contracts to 
provide additional capacity. The projects included additional 
classified and unclassified office buildings; residential and 
support facilities; as well as security and infrastructure 
upgrades. They also provided nonpermanent facilities to meet 
mission needs during construction and to provide capacity for 
surge requirements. The total project budget was $881 million.
    In spite of fluid conditions and the logistical challenges 
of managing an ongoing construction project on an occupied 
compound and in a war zone, I am pleased to report that the 
unclassified annex with a capacity of 917 desks will be 
completed this month. This November, the first residential 
facility will be delivered with 226 residential units. In 
October 2016, the classified annex, with a capacity of 320 
desks, will be completed, and the following October will see 
the delivery of the final two residential facilities, with 432 
units.
    When completed, the Embassy compound will have the capacity 
for nearly 1,500 desks and over 800 residential units and 
additional capacity if compressed.
    These accomplishments have been and will continue to be 
achieved in the face of significant challenges and 
modifications. These include the termination of the fiscal year 
2009 contract and modifications to the scope of the fiscal year 
2010 contract; an increase in scope from 545 permanent desks to 
1,237; additional security requirements as the security 
situation in Afghanistan deteriorated; a delay in vacating 
space needed by the contractor to build the unclassified annex; 
modifications to the old chancery building to make it more 
functional for post in the short term; the elimination of scope 
planned for property adjacent to the Embassy compound occupied 
by the Afghanistan Ministry of Public Health; and the closure 
of the Pakistani border from November 2011 to July 2012, 
temporarily eliminating the project's most direct ground 
shipping route.
    The cumulative impact of these changes is the addition of 
over 2 years to the project's schedule and over $250 million.
    The GAO report on Afghanistan suggested that the costs and 
schedule to project increased due to incomplete cost and risk 
assessments. And while these are important tools, I reject the 
notion that more thorough assessments would have had a material 
impact on the Kabul Embassy project. Instead, I would argue 
that they would have risked further delaying delivery of 
permanent facilities. The material changes and challenges to 
the projects were not known and could not have been anticipated 
at the time of development and award of the projects. Cost 
increases and delays were unavoidable.
    The GAO report also suggests that the Kabul project was not 
appropriately planned for the mission's needs. I also reject 
this notion. The Kabul project was planned, designed, and 
awarded to provide the full complement of office and 
residential facilities as well as all necessary support and 
infrastructure required at that time.
    Afghanistan is a fluid environment and differs markedly 
from normal operations. It is unrealistic to expect the 
development of a static master plan capturing all requirements 
at the beginning of an 8-year project, as GAO advised. Periodic 
reviews during and after the project are essential to ensure 
that the mission's evolving needs are addressed.
    Afghanistan construction is critical to the State 
Department's mission. With every day and with every decision, 
we do our best to deliver a platform that enables staff to 
perform their duties safely and securely, and we will continue 
this effort in cooperation with the Bureau of Diplomatic 
Security, post, other stakeholders, and Congress, until our 
work in Kabul is complete.
    I look forward to answering your questions.
    [Prepared statement of Ms. Muniz follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/construction-
costs-and-delays-at-the-u-s-embassy-in-kabul/
    Chairman Chaffetz. Mr. Starr, you're now recognized for 5 
minutes.

          STATEMENT OF THE HONORABLE GREGORY B. STARR

    Mr. Starr. Chairman Chaffetz, Ranking Member Cummings, and 
distinguished committee members, good morning. Thank you for 
your invitation to appear today to discuss security and 
construction developments at the U.S. Embassy in Kabul, 
Afghanistan.
    Our efforts in Afghanistan and our determination to support 
the Afghan Government are among our highest--are the highest 
importance to the Department and to the administration. I, 
along with my colleagues in the Department of State, look 
forward to working with you to examine the issues and 
illustrate how we are collectively supporting the courageous 
men and women who serve at this mission with safer and more 
secure facilities.
    Our national interests sometimes require us to operate in 
very dangerous places. We identify the risks. We take 
deliberate and prudent steps to mitigate them. The Department 
has made important strides in that regard. I personally 
discuss, plan, and strategize with my counterpart, Director 
Lydia Muniz, in the Bureau of Overseas Buildings Operations on 
at least a weekly basis, usually more than that. We plan with a 
wide array of Department interlocutors, interagency partners, 
and directly with the people managing security and the 
construction projects at the mission in Kabul. However, we can 
never foresee or mitigate all the potential pitfalls in an 
unpredictable environment like Afghanistan.
    In Kabul's high-threat environment, hostile actors 
routinely target the U.S. and other foreign nationals. 
Insurgents have employed a wide variety and range of attacks, 
including suicide operations, small arms fires, improvised 
explosive devices, assassination attempts, mortars, insider 
threats, kidnappings, and complex attacks. Just last week, as 
you mentioned, sir, there was an attack near our compound, and 
like past attacks, our facilities and security measures 
performed as they should, and continue to protect our people.
    In addition to operating in a challenging security 
environment and geographic location, we have had our primary 
shipping and resupply route impeded and closed for extended 
period of times without notice. The closure invariably slowed 
our ability to get materials to the site, but we ultimately 
found alternate routes, and our mission never ceased.
    Embassy Kabul is not just a construction site. It's one of 
the largest functioning embassies in the world with a large 
number of direct hire and contractor personnel, which requires 
significant support, including housing, office space, and 
vehicles. Although we've experienced periods of elevated and 
targeted violence, which has halted all movements by the 
Embassy personnel at times, we have resumed movements and we 
continue to build.
    When my colleague--when my colleague at the Office of the 
Inspector General has brought issues and deficiencies to our 
attention, we've made changes in short order to ensure mistakes 
are not prolonged or duplicated. We have learned lessons and 
greatly improved operational efficiencies due to the thorough 
inspection of the GAO and the OIG reports, and we thank them 
for their contributions in helping us improve our operations in 
Kabul and many places around the world.
    Our facilities have proven time and time again that they 
can withstand the most complex of attacks. Simply put, our 
physical security countermeasures work. Building facilities in 
this environment is not easy and it is certainly not without 
risks, delays and unforeseen circumstances and costs. Due to a 
fluid and evolving security environment, we must evolve and 
adapt to the conditions and circumstances that are presented to 
us. We work constantly to improve our practices and protect our 
people. We continue to reevaluate. And at times, despite the 
inherent setbacks it may cause, we must chart new courses in 
order to advance the bigger picture of completing the mission 
to secure our people.
    As I close, I will say, and I am both confident and pleased 
that, despite the many unforeseen challenges and setbacks, 
Department personnel in Kabul are better protected, prepared, 
and secured today. We look forward to working with Congress to 
ensure that our people serving abroad, particularly in these 
high-threat environments, have a safe platform for carrying out 
the conduct of diplomacy.
    I want to thank Congress for the resources that you have 
provided over the years to strengthen and reinforce this 
vitally important diplomatic platform. As the Assistant 
Secretary for Diplomatic Security, I work every day with my 
colleagues in the Department of State to ensure a safe 
environment for our people, and with your continuous support, 
we are doing that.
    Thank you. And I will be glad to answer any questions that 
you may have.
    [Prepared statement of Mr. Starr follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/construction-
costs-and-delays-at-the-u-s-embassy-in-kabul/
    Chairman Chaffetz. Thank you.
    Mr. Blanc, you're now recognized for 5 minutes.

                   STATEMENT OF JARRETT BLANC

    Mr. Blanc. Thank you. Chairman Chaffetz, Ranking Member 
Cummings, members of the committee, thank you for the 
opportunity to appear before you today to discuss the future of 
mission Afghanistan with my colleagues, Lydia Muniz from the 
Office of Building--Overseas Building Operations, and Greg 
Starr from Diplomatic Security.
    Please allow me to begin once again by thanking the members 
of the committee for your continued support for our mission. 
The American people have been generous, steadfast, and brave in 
supporting Afghanistan. I would particularly like to honor 
again the dedication of thousands of American military 
personnel, diplomats, and assistance professionals who have 
served and continue to serve in Afghanistan.
    We began our mission in Afghanistan in late 2001 to ensure 
that the country would never again be used by Al Qaeda and 
other extremists as a haven from which to launch attacks 
against U.S. territory, citizens, or interests overseas. 
History has taught us the terrible consequences of inattention 
and disregard, and we must not repeat our past mistakes.
    Since 2001, our goal has been to foster the development of 
an Afghanistan that is sovereign, unified, democratic, and 
increasingly self-sufficient, both economically and militarily; 
in short, the development of Afghanistan as a partner in 
efforts to combat Al Qaeda and other extremists who threat then 
the United States and our allies. We cannot achieve this 
without smart diplomacy and, by necessity, the presence in 
Afghanistan of U.S. diplomats and development personnel.
    Afghanistan is undeniably a dangerous place for U.S. 
diplomats, and we understand the risks associated with our 
working there. When we ask our people, our friends and 
colleagues, to go into harm's way, we do so because their work 
is vital to our national security, and we are all of us 
obligated to provide them with the resources they need to do 
their jobs safely and well.
    Understanding this, the Department of State with support 
from Congress has made significant investments to make Embassy 
Kabul the safest, most effective platform possible to carry out 
our roles, and we will continue to make improvements to adapt 
to a variable political, security, and planning environment.
    Ongoing construction and security upgrades based on our 
best estimate of longer term political and security challenges 
will create an embassy compound that is designed to minimize 
threats and sustain U.S. diplomacy. Before the end of 2017, we 
expect to complete construction on several projects that will 
provide new hardened office space and living quarters to 
accommodate permanent staff.
    In keeping with President Obama's plan for a phased 
drawdown of U.S. Military Forces and a normalization of the 
U.S. diplomatic footprint to an embassy-based presence, we are 
executing an options-based contract for life support services 
that will reduce our dependence on the Department of Defense 
support and increase our flexibility and self-sufficiency. We 
are building satellite locations that house and support the 
Kabul Embassy security force closer to the main compound, 
installing advanced early-warning technologies, and enlarging 
our facilities for threat prevention and response teams. We 
continue to work with our Afghan partners to assess emerging 
threats and develop effective prevention strategies.
    Of course, none of these measures is perfect. While we 
constantly examine our security methods to adapt to an evolving 
threat environment, I want to be clear that no amount of 
setback, no amount of security program will ever entirely 
eliminate the risk our personnel face while serving in 
Afghanistan.
    We will continue to scrutinize the environment in 
Afghanistan and our security footing to seize opportunities to 
improve security where possible. We have demonstrated an 
ability to be flexible as diplomats, surging our civilian staff 
to support the military footprint, and now drawing down to a 
smaller and more sustainable level, including by closing our 
presences outside of Kabul.
    To be effective, the business of diplomacy must be 
conducted in person. The men and women of Mission Afghanistan 
engage closely and continuously with Afghan institutions and 
actors at all levels. The reporting they provide is vital to 
informing an extensive interagency process that determines 
long-term U.S. strategy. They build relationship with 
Afghanistan with current and future leaders, making certain 
that U.S. policymakers remain well informed and our positions 
are heard. They oversee one of the United States' largest 
assistance relationships, safeguarding billions of taxpayer 
dollars. This work is critical to our efforts to fight Al 
Qaeda, assist the Afghan Government against their insurgency, 
and bolster legitimacy and durability of the Afghan State.
    Since September 11, 2001, we have made significant progress 
in degrading Al Qaeda's operational capacity in Afghanistan and 
Pakistan. U.S. diplomacy has helped the Afghan Government build 
a national army, a police force, and professional institutions 
to provide improved security, education, and opportunity for 
millions of Afghans. We have seen the country make great 
strides in expanding its democratic institutions, culminating 
recently in the first democratic transition in power in 
Afghan's history. But many challenges remain.
    Institutions must be further strengthened to give the 
fledgling government further legitimacy. A once booming economy 
has slowed and must be reinvigorated through innovation and 
investment. And Afghanistan's ability to provide a self-
sufficient security apparatus must be bolstered in the face of 
persistent threats in order to remain a capable partner at 
counterterrorism operations and a responsible regional actor.
    Fostering Afghanistan's development is the only way, 
sustainable way, to address U.S. security concerns in the 
region. And addressing these remaining challenges will require 
continuing assistance and intensive day-to-day diplomatic 
engagement. At the same time, we will continue to find ways to 
address the real risks our team in Afghanistan faces.
    Thank you very much, and I'm happy to answer questions.
    [Prepared statement of Blanc follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/construction-
costs-and-delays-at-the-u-s-embassy-in-kabul/
    Chairman Chaffetz. Thank you.
    Mr. Hays, you're now recognized for 5 minutes.

           STATEMENT OF THE HONORABLE DONALD S. HAYS

    Mr. Hays. Chairman Chaffetz, Ranking Member Cummings, 
members of the committee, thank you for inviting me to testify 
on behalf of the Office of the Inspector General for the 
Department of State. My testimony will focus on the 
construction projects and related security issues of the 
Embassy in Kabul.
    The Embassy is a fortified compound composed of two 
adjacent campuses located near the center of the city. These 
two campuses total 36 acres and are a mix of completed 
structures, temporary offices, temporary office housing 
facilities, and a construction site. The Department leases 
several residences outside the Embassy walls to provide 
adequate setback for enhanced security of those sections of the 
wall.
    At the time of our inspection, over 1,000 U.S. Government 
employees were stationed in Afghanistan, and approximately 
4,500 contractors were working in support of the Embassy 
throughout the country. Due to the massive construction 
underway at the Embassy compound, employees were forced to 
weave their way between temporary housing offices, various 
constructions sites to get to work. A number of agencies were 
still in temporary facilities awaiting completion of their new 
offices.
    The inspection took place between February 2 and March 11 
of 2014. We had 21 inspectors conducting over 600 interviews 
and reviewing hundreds of documents and 70 oversight reviews.
    When we arrived, the security situation was deteriorating 
in and around Kabul, necessitating additional security projects 
in Kabul and throughout the country. The team found the Bureau 
of Overseas Buildings Operation and the Bureau of Diplomatic 
Security were engaged in constructing a number of building 
projects both in and off Embassy compound.
    During our inspection, we reported that it spent $1.35 
billion between fiscal years 2002 and 2013, some of which had 
contributed by other bureaus for the Embassy-related 
construction and physical security projects. These projects 
include the expansion of warehouse Marine security guard 
quarters, building of two hardened office buildings, 
construction of new housing facilities, and other projects in 
Kabul outside the Embassy, including the completion of contract 
guards sleeping quarters and facilities for Embassy fire 
department and motor maintenance facilities, and other 
warehouse facilities.
    The need for security enhancement to the exterior wall was 
first identified and funded by DS in 2009. DS considered these 
enhancements urgent, given the Embassy's location in the middle 
of Kabul, large buildings adjacent to the compound, a growing 
security threat. The team made classified recommendations in 
our classified annex with regard to security enhancements. 
Necessary security enhancements, temporary housing were 
similarly characterized as urgent and funded by DS in 2011.
    Approximately 70 percent of the 800 U.S. Government 
employees and contract workers living on the U.S. compound were 
housed in temporary containerized housing units, called CHUs, 
at the time of the inspection. Most of these lacked adequate 
overhead and side cover protection. This issue was also the 
subject of recommendations in the classified annex of our 
report.
    During the course of the onsite inspection, both Embassy 
senior management team and the OIG team expressed concern about 
OBO's lack of progress on security improvements to the exterior 
wall and temporary housing. Although DS designated funding for 
these enhancements, they were not initiated, despite serious 
implications of not completing them.
    Based on interviews conducted by the OIG team, this issue 
caused considerable friction between DS and OBO at the time, 
specifically DS wishing that they expeditiously complete these 
projects, while OBO stated that it wanted to proceed with the 
projects only after design met international construction and 
safety standards.
    During the inspection process, the team raised its concerns 
with OBO about the need for enhancements. In response, OBO's 
project manager explained that there was a lack of progress due 
to a number of factors, including the number of projects 
underway, the limited space available for construction material 
and equipment on the compound. As a result, the contractor 
stated that it was required to phase in projects in order to 
work efficiently and safely. The project manager stated that 
despite the desire to enhance security involving the compound 
wall and temporary housing, there was no way to carry out these 
enhancements until current construction projects were 
completed.
    Upon our return to Washington, the inspection team raised 
its concerns about the apparent inability of DS and OBO to work 
together to find immediate solutions to these and other 
security issues in Kabul. The team met with the Director of OBO 
and the Assistant Secretary for DS on several occasions. They 
stated they would increase coordination, work together to 
address these situations. Subsequently, OBO Director 
established a senior OBO working group to work with DS to 
address urgent security-related projects. In a follow-on 
meeting between the OIG and the Undersecretary for Management, 
the Undersecretary assured the team that high level meetings 
would be conducted to eliminate outstanding issues and to 
proceed with the team's recommendations on security 
enhancements.
    In our classified report under the section ``Construction 
Projects Management'', we recommend OBO coordinate with DS and 
Embassy to develop and execute a master plan of all ongoing and 
planned projects, including those funded by DS. To date, that 
recommendation remains open and serious.
    Thank you.
    Chairman Chaffetz. Thank you. Could you repeat that last? I 
just didn't hear the last two sentences there that you said.
    Mr. Hays. In our classified report under the section 
entitled, ``Construction Project Management,'' we recommended 
that OBO coordinate with DS and the Embassy to develop and 
execute a master plan for all ongoing and planned projects, 
including those funded by DS, and to date, that recommendation 
remains open and is a serious concern.
    [Prepared statement of Mr. Hays follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/construction-
costs-and-delays-at-the-u-s-embassy-in-kabul/
    Chairman Chaffetz. Thank you. Okay. I didn't hear that last 
part, and I appreciate your repeating it.
    Mr. Gulino, you're now recognized for 5 minutes.

                 STATEMENT OF MICHAEL L. GULINO

    Mr. Gulino. Chairman Chaffetz, Ranking Member Cummings, and 
members of the committee, thank you for the invitation and 
opportunity to present testimony before this committee today. I 
am pleased to represent Aegis and all of our employees 
worldwide on this matter.
    As a brief introduction, Aegis Defense Services is a U.S. 
company based in McLean, Virginia. We provide security and risk 
management, whose focus is to provide the support necessary for 
our clients so they can undertake their missions in complex and 
high-threat operational environments. We handle everything from 
protective security to the facilities that house, feed, and 
train our employees and canines. We employ some 1,400 people as 
well as 73 canines, most of whom are performing critical 
missions in Afghanistan.
    Our team of dedicated professionals include employees from 
47 of the 50 United States as well as foreign national 
employees from Nepal and Afghanistan.
    Beginning in 2012, under Task Order 10 to our Worldwide 
Protective Services program, which I will refer to as WPS, 
Aegis worked in close concert with the Department of State to 
meet all operational and contractual requirements and to ensure 
the success of the WPS security program in Kabul.
    As the committee well knows, the Department of State Office 
of Inspector General initiated an audit of the WPS program in 
2012 and issued that report in October of 2014, and the audit 
covered the startup period of the contract.
    Mr. Chairman, Ranking Member Cummings, we fully acknowledge 
that were there some administrative and logistics issues in the 
early part of that contract. Since that time and well before 
the issuance of the OIG report, Aegis has worked in concert 
with the Department of State to address and correct these 
administrative and logistical issues. This includes ensuring 
complete and reliable processes, thorough documentation for 
record-keeping, stringent employee vetting, as well as accurate 
timecard and billing administration.
    The OIG report also raised concerns that Aegis retained 
third-country national passports during visa processing and did 
not post Trafficking in Persons, which we call TIPs, notices in 
native languages. I want to assure the committee that Aegis 
maintains vigilant human rights and TIPs compliance programs. 
We've refined our systems, and we publish a status of all 
passports being processed for visas to ensure that employees 
are aware at all times as to where their a passport is and the 
status of it. And Aegis has also ensured that TIPs posters are 
displayed in English and Nepali at prominent locations 
throughout the Embassy site where they work.
    Also, over the past 5 years, Aegis has worked closely with 
the Department of State and the DOD and the international 
private security community to establish PSC.1, private security 
contractor standard. This is what I call a supercharged quality 
management ISO 9000-like system that will ensure compliance and 
professional management of security contractors, with an 
emphasis on vigilant protection of human rights. I'm proud to 
report that Aegis was the first U.S. security company to earn 
its PSC.1 certification. This is obtained through a vigorous 
external and completely independent audit of our system both in 
McLean as well as on the ground in Afghanistan.
    Our employees and representatives abide by the Aegis code 
of conduct, which is based upon our cornerstone core value of 
integrity, further ensures our workforce culture and commitment 
to respect, responsibility, diversity, and inclusion.
    We also maintain stringent anticorruption and 
whistleblowing policies as well as a policy of zero tolerance 
for retaliation.
    In conclusion, I'd like to thank the committee for the 
opportunity to participate in the discussion and to thank the 
Department of State for the opportunity to support its critical 
operations in Afghanistan.
    Mr. Chairman, I am proud of all the Aegis men and women for 
their continued bravery, professionalism, high standards, and 
exceptional work ethic.
    I'd be pleased to answer any questions you may have.
    [Prepared statement of Mr. Gulino follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/construction-
costs-and-delays-at-the-u-s-embassy-in-kabul/
    Chairman Chaffetz. Thank you.
    I'll now recognize myself for 5 minutes.
    Ms. Muniz, you joined OBO in 2009, correct?
    Ms. Muniz. Yes, that's right.
    Chairman Chaffetz. And then you became the Director in 
2011?
    Ms. Muniz. I believe that's right.
    Chairman Chaffetz. My understanding is you went to the 
ribbon cutting there in Kabul in 2010.
    Ms. Muniz. I believe it was a groundbreaking----
    Chairman Chaffetz. Groundbreaking.
    Ms. Muniz. --in 2011.
    Chairman Chaffetz. Since you've been the Director, have you 
been back to Afghanistan?
    Ms. Muniz. No, not since I've been Director.
    Chairman Chaffetz. This is our biggest project in the 
world, correct?
    Ms. Muniz. One of our biggest.
    Chairman Chaffetz. What's bigger than this costwise?
    Ms. Muniz. I would say there are several that are on the 
scale, including Islamabad.
    Chairman Chaffetz. Have you been to Islamabad?
    Ms. Muniz. Yes. I was there with Assistant Secretary Starr 
in November.
    Chairman Chaffetz. And you think that's going to be in 
excess of $2 billion?
    Ms. Muniz. No, that won't be in excess of $2 billion.
    Chairman Chaffetz. So is there any embassy complex that's 
going to be bigger than this? This is $2.17 billion.
    Ms. Muniz. I guess I would look at it this way: We have a 
number of high-level and critical projects in the Department.
    Chairman Chaffetz. All right. I----
    Ms. Muniz. Kabul, Baghdad, Islamabad, the security 
improvements that we're making at our consulates in Peshawar, 
Lahore, Karachi. We cover the world. I have been to all of 
those places.
    Chairman Chaffetz. And we're going to have you come back 
and talk about Mexico at some point because I would like you to 
spend some more time. I know you were recently in Mexico City, 
but some of those consulates in northern--in Tamaulipas, but 
we'll come back to that.
    Is there a strategic facilities plan for the Kabul Embassy 
construction?
    Ms. Muniz. So I'm very glad you asked about the strategic 
facilities plan. I think it's important to note that the policy 
that the GAO referred to, which had been suspended, applies not 
at all to the type of project that is Kabul effectively. And 
I'd like to quote from the policy that was revoked. I'd also 
like to highlight the fact that you mentioned that this was 
adopted in the 1990s and was just recently suspended. It was 
repealed because the process had been superceded by an improved 
process, but in the time in which it was in place, only 16 of 
these facilities master plans had been done. So let me go first 
to quote what they do and explain why Kabul was not an 
appropriate place in which to do this sort of a facilities 
plan, and then I can talk to you about the type of planning we 
did do: The long-range facilities program will be directed at 
those posts not covered in OBO's regular capital or security 
capital programs. The long-range facility program is intended 
to provide a clear definition to post requirements, such that 
stakeholders and decisionmakers have the relevant data prior to 
making decisions to fund and execute projects.
    The decision based on the growth in staff and the growing 
needs of our platform in Kabul had already--we had already made 
the decision that we were going to invest in growth in Kabul. 
The long-range facilities plan was a tool that was developed to 
address those posts with nagging infrastructure and deferred 
maintenance needs that were never making it onto our program 
lists.
    Now, back to the question of whether planning was 
conducted, which I think is a very valid question. At the time 
that we developed the scope for the Embassy Kabul compound, a 
comprehensive plan was done for that compound as a standalone 
facility, assuming a continued DOD presence until modifications 
or drawdowns were made to that presence. So it was master 
planned. That plan was designed and is currently being 
executed.
    That said, things do get messy when you're working on an 
occupied compound around hundreds of temporary facilities where 
you're squeezing the construction project in amongst those.
    But, yes, a master plan was conducted. It was developed. It 
was designed. It's being built. There are ongoing reviews of 
what needs to be done in that environment because in the 6 
years since the award of that project, we have had to do 
continuous re-looks with post, with the Bureau, with DS about 
what are new needs, what are evolving needs in a situation that 
is continually evolving, but we started with a master plan and 
will continue to make modifications to that plan until we have 
the right combination of facilities and security features in 
place in Kabul.
    Chairman Chaffetz. I appreciate that long answer. And I beg 
some indulgence here from my colleagues here as we now start to 
ask some questions.
    Is that master plan something you can provide to this 
committee?
    Ms. Muniz. Yes. I think--the reason I pause is that this 
master plan is really made up of many documents, which sort of 
look at all of the----
    Chairman Chaffetz. No doubt--no doubt there are many 
documents. All I'm asking for is I'd like the original plan, 
and I'd like to see the updated plan because to hear you say 
it, there's no problems, but to hear Mr. Courts and Mr. Hays, 
you're spending hundreds of millions of dollars in addition to 
what was originally planned. You're 3 years behind schedule. We 
have people living in temporary facilities that aren't secure.
    Let me read part of this page 16 of this GAO report: 
Between 2009 and 2010 contracts, State should have conducted 
four cost-containment studies and six risk assessments. 
However, for the 2009 contract, State confirmed it did not 
conduct either type of assessment.
    You in your written statement wrote: I reject the notion 
that more thorough cost or risk assessments would have had a 
material impact on the cost or schedule of the Kabul Embassy 
project. Instead, I would argue that additional assessments 
would have risked further delaying the delivery of permanent 
facilities.
    You went to say: The cost increases and project delays were 
not avoidable.
    You also said: The GAO also suggested the Kabul project was 
not an appropriate plan to take into account the mission's 
needs in the maximum extent possible.
    We're left begging, who should we believe? We have a very 
independent--they don't seem to have an agenda, GAO. You have 
an inspector general. They both come in and look at this and 
cite a host of problems. I mean, look at the way Mr. Hays 
concluded his assessment. We can't even get the DS people in 
the same room having the same conversation with the OBO folks. 
I'll go to page 17.
    DS, Diplomatic Security, is cited in the policy as an 
interested office. This relates to the cost-containment 
studies. According to the attendee list, no one from Diplomatic 
Security participated in the meetings related to this study, 
and Diplomatic Security officials we spoke with indicated they 
were not aware of this study and its security recommendations. 
The fact that we can't even get Diplomatic Security to be part 
of the discussion in one of the most dangerous places on the 
face of the planet makes no sense to us.
    So, in isolation, you're saying, we don't need to do better 
planning, we don't--we have a great facilities plan, but I've 
got two independent groups that have looked at this over the 
course of more than a year saying you're wrong, that there is a 
big problem. We in Congress are looking at funding this to the 
tune of more than $2 billion. You're coming in 3 years late. 
We've got people who live there that aren't secure, and you 
still have hundreds of millions of dollars in front of you that 
you need to spend.
    We've always known that Afghanistan is dangerous. That is 
not--there is no doubt that it has been dangerous and will 
continue to be dangerous. I have been there. It is a fortress 
of cement. It's a very difficult thing. We've got people that 
we love, that we care about, that are sacrificing their lives 
and their families and putting their--sacrificing for this 
country, and they're living in a hooch that is substandard and 
not secure.
    So I have gone way past my time here, but I struggle to 
figure out, since you became the Director, even the Deputy 
Director, why do you think things are going better because 
every metric I'm looking at is worse in this particular case, 
every one.
    Name one thing that is going better in Afghanistan since 
you became the Director.
    Ms. Muniz. I guess what I would say is, the way you've 
constructed the sentence is complicated.
    Let me be very clear about this. Kabul and Afghanistan are 
incredibly complex, continually evolving environments. The 
security situation has deteriorated. The numbers of desks have 
gone up. The movement and post needs in and around an ongoing 
construction project have continued to evolve.
    Those projects were awarded since I have been there, and I 
have watched the team work tirelessly with their colleagues in 
Diplomatic Security to do the best that they can to accommodate 
all of the changes----
    Chairman Chaffetz. But the report says that Diplomatic 
Security is not even in the meetings.
    Ms. Muniz. If you could let me finish. And to keep the 
project moving forward.
    With respect to your comments on the value engineering 
study, which I think is a valid point, Diplomatic Security was 
invited to that meeting. There were no Diplomatic Security 
items that were added to the value engineering list. Had there 
been, we would have gone back to our colleagues at Diplomatic 
Security----
    Chairman Chaffetz. Well, they can't add them to the list if 
they're not even in the meeting. That's the point of having 
them in the meeting, is to get their perspective in a high-risk 
assessment. We have been there for more than a decade.
    I have blown past my time. I want to give Mr. Courts and 
Mr. Hays an opportunity to offer some perspective, and then I 
need to allow other members to ask questions.
    Mr. Courts.
    Mr. Courts. Sure. Well, I would just first acknowledge that 
Kabul is indeed a very challenging environment. And there is no 
way to completely eliminate all risk, especially in a place 
like Afghanistan, and that is precisely why adequate cost 
containment and risk assessment is so important in a place like 
that, where the impact of the cost and schedule is so much 
greater when problems are encountered.
    And I think if State had followed its own policies earlier, 
for example, as part of the 2009 contract, it probably could 
have better managed risk. It may not have eliminated all of the 
risk, but it may have better managed some of it. And if they 
had done that earlier, it would at least have given State a 
chance to develop mitigation strategies prior to soliciting the 
2010 contract.
    I would also note that when they did do a risk assessment 
and cost containment study for the 2010 contract, they did 
identify a number of risks, some of which did indeed come to 
pass. One of them was a potential problem with the sequencing 
of the two contracts. Another was the potential loss of the 
Afghan Ministry of Public Health site that my colleague 
mentioned.
    So there were a number of things that were not 
unpredictable. State actually did predict those problems.
    Chairman Chaffetz. Thank you.
    Mr. Hays.
    Mr. Hays. Well, first of all, both the findings of our 
report and the GAO pretty much mirror each other. We were 
concerned about the lack of an overall plan that projected out 
into the future. We were concerned about the security of our 
people and the compound.
    When we came back we raised these issues. There was tension 
in the field between DS and OBO and between the field and 
Washington. We addressed those both to Director Muniz and to 
Greg Starr. They had agreed at that meeting to improve 
coordination and collaboration. At a later date, in a meeting 
with Director Muniz, she even established a working group of 
her senior colleagues to work with senior colleagues in DS.
    We believe that the coordination is improving, certainly in 
Washington. We are not able to speak to the relationship in the 
field anymore since we left.
    Chairman Chaffetz. Thank you.
    We now recognize Mr. Cummings for an exceptionally long 
period of time.
    Mr. Cummings. I just want to see if I can put all of this 
in context a little bit.
    Ambassador Hays, I would like to ask you some questions 
from the view of the Inspector General's Office. I understand 
that the staffing for the U.S. Embassy at Kabul significantly 
increased since we reopened the Embassy in 2002. Is that right?
    Mr. Hays. That's correct.
    Mr. Cummings. In 2009, there was a bipartisan support for a 
drastic increase in the troops and civilian personnel in 
Afghanistan, and they commonly called that the surge. IG 
reports cite the surge as directly impacting planning for the 
Embassy compound and its construction contracts.
    I would like to understand in greater detail just how these 
staffing fluctuations have impacted the Kabul Embassy and also 
how State plans to adapt to such changes. Last August, the 
Inspector General's Office issued a report explaining that the 
total number of American personnel working for the State 
Department in Afghanistan grew, and I quote, ``from 340 
Americans in fiscal year 2008 to a peak of more than 1,340 in 
fiscal year 2012,'' end of quote.
    Is that all correct? Is that right?
    Mr. Hays. I believe that's correct.
    Mr. Cummings. Now, these numbers reflect an increase of 
almost four times in State Department personnel in Afghanistan 
within 4 years. Is that right?
    Mr. Hays. That's right.
    Mr. Cummings. Ambassador Hays, do you know approximately 
what percentage of those people worked in the Kabul Embassy.
    Mr. Hays. As of the time that we visited, about 800 
Americans were housed on the compound.
    Mr. Cummings. All right.
    Mr. Hays. I can't talk about how many there are now, 
because they were talking about a downsizing over the next 
year.
    Mr. Cummings. Now, from what I understand, a number of non-
Americans also work at the Embassy, as do employees from other 
agencies. For example, FBI, DEA, the Department of Homeland 
Security have employees there who conduct important work at the 
Embassy at Kabul.
    Now, Mr. Blanc, from the Department's perspective, the 
United States Government work in Afghanistan requires a larger 
interagency presence at the Embassy that also fluctuates 
depending on a variety of factors. Is that correct?
    Mr. Blanc. Yes, sir.
    Mr. Cummings. These fluctuating staff levels must have 
exacerbated the space challenges experienced by the Kabul 
Embassy. Is that correct?
    Mr. Blanc. Sir, that's absolutely correct. And as we noted, 
the Department has tried to really be expeditionary and 
flexible to surge our number of both State and other agency 
colleagues when the military surge took place, and now to draw 
down to a more sustainable level. At each of those decision 
points we have been confronted with very variable political and 
security environments in Afghanistan that we have tried to find 
the best diplomatic ways to address.
    Mr. Cummings. Now, Director Muniz, what about your 
perspective from the Bureau of Overseas Building Operations. 
How did the surge impact planning for the building of the Kabul 
Embassy? And I have the same concerns, by the way, that the 
chairman has, and I'm just curious as to your answer on that.
    Ms. Muniz. I would say that it impacted the project pretty 
dramatically.
    Mr. Cummings. Could you put your mic up because we can't 
hear you.
    Ms. Muniz. Sorry. I would say that it impacted the project 
pretty dramatically. But that said, we knew that we were 
operating in an environment where we would be trying to adjust 
to these changes. And so given the constraints, given the time 
that we had, we moved forward with awarding the project as 
quickly as we could and incorporating those changes as quickly 
as you could.
    In a perfect world, you know the final number of desks 
years before you develop a project. You develop a design and 
you award it and nothing changes. That's simply not the reality 
in Kabul. And I think it would have been a waste of time to 
wish that it was and to not continue to react to the changes in 
the best way we could.
    Mr. Cummings. So it's sort of like flying a plane and 
building it at the same time?
    Ms. Muniz. A little bit.
    Mr. Cummings. This past May, GAO issued a report 
concluding, and I quote: ``Since the Embassy reopened in 2002, 
the dynamic and unpredictable operating environment of 
Afghanistan has produced changing facility needs that have 
continually outpaced existing capabilities at the post.'' Ms. 
Muniz, do you agree with that statement?
    Ms. Muniz. I do agree with that statement.
    Mr. Cummings. And could you provide some examples?
    Ms. Muniz. I mean, again, I think shifting numbers, I think 
the fact that those numbers would delay the removal of 
temporary facilities that are in the footprint or the path of 
building permanent facilities, all of these things can 
complicate the execution of those projects.
    Mr. Cummings. But you heard what Mr. Courts said. He said 
that he still thinks that you all could have figured all of 
that out. He realized that there were things that were 
unpredictable--am I right, Mr. Courts?--but there were certain 
things that you could have done to move things along more 
precisely.
    Is that right, Mr. Courts?
    Mr. Courts. That's correct.
    Mr. Cummings. And do you agree with that, Ms. Muniz?
    Ms. Muniz. I don't agree with that.
    Mr. Cummings. Why not?
    Ms. Muniz. I simply don't.
    Let me give you one example. So the recommendation, the 
risk assessment and the cost evaluation that were done to the 
2010 projects that have been referred to, the cost savings 
generated from the value engineering study were a million 
dollars in a project well over a billion dollars.
    The risks that were known at that time--so in an ideal 
situation you don't award a project to two different 
contractors, you award to one contractor and they go beginning 
to end. The decision was made that there was an opportunity to 
gain time and to get hardened facilities delivered or at least 
a portion of those delivered faster. And so we took the 
calculated risk and made the decision to move forward with that 
approach.
    Is it an ideal approach in sort of an ideal scenario? 
Absolutely not. And I think that point is valid. But I think 
that we understood the risks. We understood the value of doing 
more assessment. But we also weighed it against the really 
primary need of moving the construction project forward as 
quickly as we possibly could.
    Mr. Cummings. Ambassador Hays, you are from the Inspector 
General's Office. In October, your office issued a report with 
some troubling findings about Aegis and its work in 
Afghanistan. I understand that you were not the individual who 
worked on the report. Is that right?
    Mr. Hays. That's right.
    Mr. Cummings. But you're familiar with it, are you not?
    Mr. Hays. I'm not familiar with the body of work that 
supports that report.
    Mr. Cummings. Okay. Well, let me direct the questions to 
the other witnesses.
    Mr. Gulino, you are the CEO of Aegis. Is that right?
    Mr. Gulino. Yes, sir.
    Mr. Cummings. When the IG issued its report in October, it 
raised serious questions about how Aegis handled passports from 
third-country nationals that you hired to come to Afghanistan. 
Specifically the IG found that your company held these 
passports for much longer than would have been necessary for 
visa purposes, raising the prospects of violations of the 
standards against trafficking in persons. That's a very, very, 
very serious thing, would you agree, issue?
    Mr. Gulino. I agree. That's a serious----
    Mr. Cummings. Trafficking in persons.
    Mr. Gulino. Absolutely.
    Mr. Cummings. Yeah. And let me read what the IG found, and 
I quote: ``Aegis held third-party nationals'"--TCNs--
``passports for periods longer than necessary, had inadequate 
trafficking in persons awareness training for TCNs, and lacked 
posters in TCN native language requiring reporting of all TIP 
violations, all of which increased the risk of inappropriate 
practices that could lead to potential TIP violations.''
    I know I heard you say that now you have got the posters 
up. You should have had the posters up from the very beginning. 
You are getting $723 million. Seems like you could put a poster 
up. Would you agree? Hello.
    Mr. Gulino. Yes.
    Mr. Cummings. Mr. Gulino, why did your company do that? Why 
didn't you have the posters up? And why were you holding 
people's passports?
    Mr. Gulino. Well, let me address them separately.
    Mr. Cummings. Yeah, please do.
    Mr. Gulino. The passports weren't held longer than they 
were required to be held. It's a difficult situation in 
Afghanistan submitting the passports and the documentation to 
the Ministry of Interior, and they don't turn them around as 
quickly as we would like.
    Where we failed initially was to keep the employees up to 
date on the status of their passports. But I can assure you and 
the committee that we don't hold them any longer than we need 
to, and we do keep them advised of the status.
    With regard to the posters, we didn't have posters 
published in Nepali, and we should have done that, and there is 
no excuse for it. It has been corrected.
    Mr. Cummings. We shouldn't be hearing about these kind of 
problems in the future. Is that right?
    Mr. Gulino. Sir?
    Mr. Cummings. We should not be hearing about these problems 
in the future.
    Mr. Gulino. That's correct.
    Mr. Cummings. That is, Aegis holding people's passports 
longer than it is supposed to, a company that we are paying 
$723 million, placing people in a possible indentured servant-
type situation. We shouldn't be hearing about that, is that 
right, not in 2015?
    Mr. Gulino. That's correct.
    Mr. Cummings. Now, in fact the Inspector General reported 
that many of these workers complained, and I quote, ``that it 
took 3 to 4 months to obtain a new passport resulting in the 
contractor holding passports for approximately 4 months for 
every 6-month visa.''
    Mr. Gulino. Well, that's, again, it's a function of the 
Afghan Ministry of Interior. We weren't holding them longer 
than we needed to. We work with the Ministry of Interior to try 
and turn those visas, multiple entries around as quickly as we 
can. It has improved. But I can assure you, we don't hold 
passports unnecessarily. It's just for the period of time that 
we need to obtain its work permits and multiple entry visas.
    Mr. Cummings. So now how do you--you said now you are able 
to--you are in a position where you are informing these people 
as to the status and what is happening with the passports. How 
does that work? I mean, do they come to you and say--do they 
have to come to you and say, ``What's happening with my 
passport?'' Or do you go to them? How does that work?
    Mr. Gulino. Well, the way it works is that our program 
managers and all of the assistant managers work with the Nepali 
captains of the various groups, the Gurkha Guard forces, and 
they advise and they give them data, and it is published in the 
breakrooms also.
    Mr. Cummings. Well, it's interesting, and I want to make 
sure you correct this, which was also found by the IG. It says 
the IG found that your company had, and I quote, ``an absence 
of detailed records in the contractor's passport control log.'' 
It's kind of hard to give them accurate information, give them 
the information, when you don't even have the appropriate 
detailed records. What's happening with that? Have you improved 
that?
    Mr. Gulino. Yes, we have accurate records. We know exactly 
where everyone's passport is on the entire project.
    Mr. Cummings. Now, Mr. Gulino, our committee has conducted 
extensive investigations of security contractors operating in 
Iraq, including the horrendous way they treated third-country 
nationals they brought in under circumstances almost 
resembling, as I said a little bit earlier, indentured 
servants. I think we all agree that this goes against our most 
basic values as Americans. And a key part of our oversight 
responsibility is to ensure that lessons have been learned from 
past mistakes. In that vein, we must be diligent in reviewing 
the performance of the contractors that are hired to secure the 
Kabul Embassy.
    Ambassador Hays, let me just circle back as I close. I know 
you were not the one who worked on the IG report, but we would 
like to follow up on these findings. Can we schedule a briefing 
for our staff to get an update on the inspector general's 
findings in October?
    Mr. Hays. I'm sure that we can find the appropriate time to 
do so.
    Mr. Cummings. Very well.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. And, Mr. Hays, following up on Mr. 
Cummings questioning, can the State Department inspector 
general review the documentation that is going on with Aegis 
around the world?
    Mr. Hays. I will bring this back to the attention of the 
auditors who conducted this and see what they can do.
    Chairman Chaffetz. If you could confirm with us that you 
are actually going to do that, we would appreciate it.
    Mr. Hays. Absolutely.
    Chairman Chaffetz. Thank you.
    We now recognize Mr. Mica, the gentleman from Florida, for 
5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    My first question is to the director of the Bureau of 
Overseas Buildings Operations. I think I heard you say that we 
were--that they are going to--you spoke about opening more 
desks or something being available. The chairman had asked 
about, like, what had you achieved. But in your testimony you 
said, like, in the next few days we're going to open a facility 
with more desks? What was that?
    Ms. Muniz. This month and in the coming weeks----
    Mr. Mica. I can't hear you.
    Ms. Muniz. This month, in the coming weeks we are opening 
an unclassified facility with 917 desks.
    Mr. Mica. Okay. Well, I was, you know, looking back at your 
testimony, and some of what you've told us today, it sounds 
like the desk report. We have gone from just hundreds of desks, 
you said you will have 900 desks? And then when complete, the 
project will have 1,237 desks. But we could actually grow to 
17--well, we'll go to 1,487, and then the plan is to go to 
1,771.
    Ms. Muniz. So let me clarify. So what that does is it 
breaks out the scope provided in the current project, in the 
2009 and 2010 projects, so that's the 1,200 and the 600. If you 
combine those with the existing facilities, when we started the 
project, there was a building that we completed in 2009----
    Mr. Mica. Well, again, I appreciate the desk report. People 
don't understand that, I guess, the revenue in the entire 
country that they get in is about $2.5 billion, and their 
entire budget is $7.2 billion. Most of the rest is given money, 
isn't that correct, approximately, for Afghanistan?
    Mr. Blanc. I don't have the exact----
    Mr. Mica. Well, I do. Okay, that's the exact figures. The 
scope of this project is $2.2 billion and the emphasis seems to 
be on desks. Isn't, by the end of the year, isn't the 
administration supposed to have almost all the troops out? Mr. 
Blanc, do you know?
    Mr. Blanc. Sir, yes, we have----
    Mr. Mica. By the end of next year. So we will have probably 
one of the best arrays of desks that you have ever seen in any 
post. I mean, now, how many people could there be in the entire 
bureaucracy? I was over there, and I met with some of the 
Foreign Ministry folks. Are we going to be buddy, like, three 
to one. Does anyone know?
    Mr. Blanc. If I may, and again this refers back to the 
point that I have made that we have tried to be very flexible 
and responsive in terms of our staffing in order to----
    Mr. Mica. I know, but again a desk would suppose that a 
person is sitting at it.
    Mr. Blanc. Yes, sir.
    Mr. Mica. Of course, vacant desks would be another matter.
    But we are building--this is a $2.2 billion project. It's 
probably the biggest infrastructure project in the history of 
Afghanistan in a country that has revenue of about $2.5 billion 
coming in, and we are supplying--we are going to have this 
massive complex of desks. This is going to be the Taj Mahal of 
desks and the Taj Mahal complex that the taxpayers are getting 
ripped off for.
    Mr. Blanc. If I may, sir, let me--I think there two parts 
to your question.
    Mr. Mica. I don't have enough time.
    I want to go to, again, your company, sir, Aegis, is 
British based?
    Mr. Gulino. The parent is British and we have a U.S. 
subsidiary that's----
    Mr. Mica. Okay. One of the things that disturbed me--now, 
who is your partner in Afghanistan, your major construction 
partner?
    Mr. Gulino. We have a----
    Mr. Mica. Afghani partner.
    Mr. Gulino. No, sir, we don't have Afghani----
    Mr. Mica. No one in Afghanistan?
    Mr. Gulino. We have a subcontractor, Contrack 
International, they are also headquartered in McLean, that's 
doing work for us.
    Mr. Mica. Are half your employees from Afghanistan and half 
from, where, the U.S. or other countries?
    Mr. Gulino. Of the approximate----
    Mr. Mica. Of the project.
    Mr. Gulino. Of the 1,400, 300 are from Afghanistan.
    Mr. Mica. The rest are brought in?
    Mr. Gulino. Yes, sir. It is a little over 600 Nepalese and 
about 400 U.S.
    Mr. Mica. The thing that bothers me is I was out in Helmand 
Province with some of our troops and they were looking at a 
school building they showed me. They said this is the joke of 
the province. He says, the Americans paid three or four times 
what it would cost for this. We appreciated that, the school. 
But it was the joke of the province.
    What would you estimate the premium you are paying for 
building in Afghanistan to be, three, four times what it would 
normally cost?
    Mr. Gulino. Well, there's a guide----
    Mr. Mica. Again, I just give an anecdotal incident. But not 
only the troops, but the locals told me that we are getting--
that the American taxpayer is getting ripped off on these 
projects.
    Mr. Gulino. We are not doing that kind of work for the 
State Department.
    Mr. Mica. Finally, I do have a letter, Mr. Chairman, I 
visited one of our posts recently, a major post in Western 
Europe. Mr. Issa and I had worked at the end of his tenure 
going on post-Benghazi visits to some of our complexes and 
trying to avoid another Benghazi. And one of the simple things 
we found--that's a huge project, it is a money pit--but one of 
the simple things we found was the lack of surveillance cameras 
and their ability to also have high definition and get those 
replaced.
    When I visited within the last 2 weeks one of our major 
posts in Western Europe, I found that one of the facilities did 
not have those surveillance cameras. I said: Was the reason 
money? They said no. Was it supply or something? They said: No, 
it was the bureaucratic acquisition process.
    I sent Secretary Kerry this letter. I would like this made 
part of the record. And I would like a response to why we can't 
acquire some of the small things that make a big difference in 
security.
    Chairman Chaffetz. Without objection, so ordered.
    Chairman Chaffetz. I thank the gentleman.
    We now recognize the gentleman from Massachusetts.
    Mr. Starr. Congressman, I will answer that question for you 
in writing if you would like.
    Mr. Mica. I would like that.
    Chairman Chaffetz. Thank you. I appreciate that. We look 
forward to seeing that.
    We will now recognize the gentleman from Massachusetts, Mr. 
Lynch, who has traveled extensively to Afghanistan, spent quite 
a bit of time there. And I appreciate his efforts and sacrifice 
for being there. But he is now recognized for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I know a lot of the 
members on this committee have been in and out of Kabul and 
Afghanistan on a bunch of occasions.
    One of the most troubling aspects of our people working 
there is not so much the security of the Embassy, which is 
important, but from my experience going in and out has been the 
real challenge, going from Bagram or Kabul International 
Airport and then getting to the Embassy.
    And Mr. Starr, and maybe Mr. Hays, or Mr. Courts, is there 
any plan to have a helipad or some way? We are going to have 
1,500 or 1,700 desks. We are going to have a lot of people. We 
are going to have 4,500 contractors. We are going to have 1,000 
employees. And I'm just concerned about something going 
sideways there where the Embassy might be overrun or something 
like that, and then we have got to get our people out.
    We have had incidents from codels where, you know, going 
through Massoud Circle or there is another rotary coming in 
from the airport where my security staff had to get out of the 
car and push people away from the Suburban that I was in. They 
were upset about something. I couldn't figure that out.
    But there's some real danger there going in and out of our 
Embassy, from the airport to the Embassy. We just had a convoy, 
a NATO convoy, you know, and a vehicle-borne IED recently. I 
have given up counting how many attacks on the Kabul Airport by 
the Taliban.
    So they are focusing on that corridor. And I'm just 
wondering if we're taking any precautions at all about getting 
our people in and out of that area. And again, do we have an 
evacuation plan if things really get bad there and we have got 
to get our people out?
    Mr. Starr. Congressman, thank you for the question.
    Part of our job, and we do it everywhere in the world, is 
to make sure that we have adequate evacuation plans for our 
personnel, and not a single type of evacuation plan, but 
multiple different plans. We could do short drawdowns of 
certain personnel. We could lower our presence. Or they go all 
the way to evacuation----
    Mr. Lynch. Yeah, well, let's talk about Kabul.
    Mr. Starr. We work closely with the Department of Defense.
    Mr. Lynch. Okay.
    Mr. Starr. We are in the midst of upgrading because of the 
surge and the number of people that are going to be left behind 
and the military leaving in large part. We are in the midst of 
another revision of the evacuation plan, the NEO plan we call 
it. We will ensure that we have the ability to get our people 
out of that country. Given the size, it won't be overnight. 
This is not like evacuating a 200-person embassy. But we will 
work very closely with DOD.
    Your other part of the question, sir, we are exceptionally 
aware of the danger of the route, particularly Route White that 
goes between the Embassy and the airport. We have been using a 
mixture of air movements and ground movements, as appropriate. 
The Embassy every single day reviews how they are going to move 
people back and forth and what's the safest way to do it.
    We have, I think because of our efforts, not suffered the 
same types of attacks yet. I can't guarantee that we won't ever 
have them. But we absolutely do our best and we use a mix of 
air and ground movements.
    Mr. Lynch. Yeah. Well, I would say given the history here, 
we should expect, You know, further attacks on the Embassy, and 
on the airport as well. We are spread out here between, you 
know, Camp Alvarado and then Camp Sullivan, Kabul Airport. We 
have got some properties there where we're spread out.
    And I think the distance, it's about 2.5 miles, I think, 
from--at least 2.5 miles, probably longer, from the U.S. 
Embassy to Kabul Airport. That's a pretty long ride and those 
roads aren't good. I'm just concerned about getting our people 
out of there. Just practical stuff.
    I'm going to--I don't have enough time to go over the 
contract issue. I do think, Mr. Chairman, that we need to get 
back on the ground in Kabul and go over all these documents and 
figure out what the cost increase, what that delta is between 
what we expected to see and what we are seeing now in terms of 
cost.
    And I'm not at all assured by the statements that the 
quality of the work is good and we're on schedule and we're 
under budget. And I think that's just bogus, you know. We heard 
the same thing from Ms. Muniz's, one of her predecessors, 
General Williams, about the Baghdad situation, that the quality 
of the work was good and we're under budget and we're on 
scheduled. And then when he was gone, the budget went from $500 
million to close to a billion.
    I was in Baghdad. I stayed at the Embassy last week. I 
mean, I'm happy it's done. But in the meantime, we lost some 
good Americans, electrocuted because of faulty code violations 
and electrical systems that weren't grounded, things like that. 
And I'm just concerned that we are having a repeat performance 
here.
    And we did let the contractor know that this was in 
Afghanistan. So the added costs should have been baked in. 
Afghanistan has never been a peaceful, not in my lifetime, a 
peaceful place, and it was always a difficult environment to 
operate in. So we shouldn't be shocked that a war broke out. 
There has been a war going on there for 10 or 12 years, and 
beyond that with the Soviets.
    So it's always been a tough environment. So I don't like 
hearing that over and over again, that that's the reason for 
the cost increase. When we get a bid, we expect that to be 
baked into the cost, that this is a construction project in a 
difficult environment.
    But I do appreciate you trying to help the committee with 
it's work.
    And I'll yield back. Thank you.
    Chairman Chaffetz. I thank the gentleman.
    We now recognize the gentleman from Michigan, Mr. Walberg, 
for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel.
    I have been in Afghanistan and Kabul several times, and I 
think the most recent one was late 2010 that I was there. At 
that time some of the temporary facilities used shipping 
containers. I remember staying in hooches, trailers, and then 
having meetings in shipping containers and temporary 
facilities.
    I assume these are still at the Embassy and in use, Ms. 
Muniz. I'm correct?
    Ms. Muniz. Yes, that is the case.
    Mr. Walberg. How secure are they? Mr. Starr?
    Mr. Starr. Sir, I would tell you that they certainly don't 
come to the same level of security as a permanently built 
building, but we have taken steps to surround them with either 
concrete barriers to limit shrapnel, we have overhead cover in 
forms of sandbags on many of them--most of them. We have 
predetonation shields over the top of them so that a mortar or 
rocket coming in predetonates them and the sandbags catch the 
shrapnel. We have over 100 feet of setback from any of our 
perimeter walls. We have high perimeter walls around them, 
well-guarded and well-reinforced. We have bunkers on the 
compound.
    To the extent that we have to use these temporary CHUs, we 
are very aware of the vulnerabilities that they come with and 
do everything we can to mitigate them until we can bring the 
buildings, the permanent buildings on line.
    Mr. Walberg. Mr. Courts, I understand that GAO recommended 
that State establish security standards for the temporary 
facilities and that they did not accept these recommendations. 
Is that correct?
    Mr. Courts. The State Department partially concurred with 
that recommendation. They didn't fully accept it.
    Mr. Walberg. What were the problems with fully accepting 
them?
    Mr. Courts. Well, the State Department would argue that 
there are office of Security Policy Board standards that apply 
to all facilities overseas, including permanent and temporary 
facilities, and that those are the standards that they hold 
themselves to. But in actual practice, I think they would tell 
you that the only buildings that actually meet those standards 
are permanent structures. And as we noted, when State 
contracted for the temporary buildings, they contracted for 
buildings that had differing levels of security and didn't have 
overhead cover.
    I would also note that in 2008 the State Department 
notified the Congress that they needed additional funds because 
the threat in Kabul required overhead cover for their temporary 
facilities. But in 2009 they contracted for temporary buildings 
that did not specify the need for overhead cover.
    Mr. Walberg. Let me give an opportunity for Ms. Muniz or 
Mr. Starr to answer from your perspective on that question of 
not accepting all the standards and where you are at now.
    Mr. Starr. Sir, the recommendation to have different 
standards for temporary structures has always struck us as very 
strange. We try----
    Mr. Walberg. But they are different facilities.
    Mr. Starr. Well, the problem is that invariably, when I 
have seen standards for temporary structures or interim 
facilities, it's a lowering of the standard. What I'm afraid of 
is that we will, by virtue of the fact that a trailer is a 
trailer, we will have lower levels of security standards for 
them rather than striving to meet the real standard.
    An example, sir, is that for many years all we had was 
construction trailers. Over the last several years, we have 
developed a heavily armored trailer that we can now ship into 
places, and we are using them in Adana and we are using them in 
Peshawar, that allows us to much more closely meet the actual 
real permanent standard. It is our goal to meet the permanent 
standards to the extent that we can and not water down the 
standards and have lower-level security standards for interim 
structures.
    Mr. Walberg. Ms. Muniz, did you have--I noticed you moved 
toward that, and I don't want to cut you off if the answer is 
there.
    Well, I would assume that in 2009, I'm told that State 
acknowledged that personnel should be housed in permanent, 
hardened facilities. We are dealing with reality, I understand 
the process. Our concerns today are the basis of the 
questioning of how this has been a cost overrun, how it 
continues on, the length of the process. But we have a large 
number of American personnel using temporary facilities in 
Kabul. I appreciate the answers that you want to go and strive 
toward the permanent level, but these are not permanent, though 
they seem to be existing an awful long time. I guess I have 
heard your answer that you don't plan to develop standards for 
temporary housing.
    So knowing that my time has expired here, Mr. Chairman, I 
would contend that the biggest question is, how do we finish 
this project, complete it, complete it on time, and make sure 
that it meets the standards necessary? I yield back.
    Chairman Chaffetz. Do either of you want to respond to 
that? I mean, the overuse of temporary facilities is a deep 
concern.
    Mr. Starr. Mr. Chairman, at the time that the Department 
and the administration made the decision that we needed to 
surge people in, we had no choice but to use temporary 
facilities.
    At the particular start of that period in 2009 and 2010, 
some of the threats that we were facing were not the same types 
of threats that we are facing today. We had had other buildings 
built around us in the meantime that grew in height. That 
presented a different type of threat. Once we saw that, we 
started surrounding our buildings with cement walls and 
sandbags.
    We had not been subject to incoming fire, either mortars or 
rockets, and even today it's a very, very infrequent type of 
attack. Infrequent or not, we have taken the countermeasures 
now by putting overhead cover on our temporary facilities, 
building walls around them, putting bunkers in, making sure 
that we have a radar system that's a duck-and-cover warning 
system to give people the most amount of time.
    I think it really goes to the point that we have to serve 
in certain places and we have to take certain risks. I 
understand that we had a surge. We had to go in with trailer 
type of housing units and in some cases offices. We modified 
those to the absolute best we can to actually try to mimic our 
permanent standards, give them setback, give them bullet 
resistance, give them shrapnel resistance. We make sure that we 
do everything that we can. But at a certain point we have no 
choice but to use temporary structures while we are awaiting 
the permanent structures to be completed.
    Chairman Chaffetz. The only problem I have with what you 
said is it is just not true, and that was borne out in these 
reports. And I can go in great specificity, but probably not in 
this nonclassified setting. But for you to suggest that you 
have done all those things in Afghanistan, that ain't true. 
That is not true.
    Mr. Starr. Sir, we try to do that as best we possibly can. 
There are certain times that we have not----
    Chairman Chaffetz. But you didn't. You did not. No, I beg 
to differ, and believe me, if we can get these two, the GAO, 
the inspector general, myself, and you, and whoever else wants 
to be in that, that is not true. And I will show it to you. 
They have pictures in it. And that's the concern.
    Mr. Walberg. Mr. Chairman, may I just follow up and say I 
think this goes to a bigger policy, and that is our whole 
Afghan policy, that we are leaving State Department in a 
situation like this without a significant policy on how to win, 
keep, and secure Afghanistan.
    Chairman Chaffetz. I thank the gentleman.
    We now recognize the gentlewoman from New Jersey, Mrs. 
Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman, and thank you 
for your indulgence in the time allotted to get through some of 
these interesting questions.
    And thank you to the panel.
    What is the condition of the wall, the wall that was the 
subject of the report that I read last night? Is it complete or 
is there a portion that's left?
    Ms. Muniz. Let me take the first part of that question and 
then I will turn it to my colleague, Mr. Starr.
    That wall is currently in design and will be executed in 
the context of the larger construction contract.
    I appreciate the question because the issue of the request 
for modifications to the wall came up in the IG report, and the 
question about why this couldn't be done immediately. I think 
the committee and folks need to understand that we have an 
active construction project that included construction of a 
wall in the context of the larger project.
    Mrs. Watson Coleman. I understand that. I understand.
    Ms. Muniz. So those modifications will be made in that 
context.
    Mrs. Watson Coleman. So the wall was considered very 
significant in keeping those within the walls safe and secure. 
So absent having that wall, I'm new, I have not been there, 
what is keeping that facility and that compound safe?
    Mr. Starr. There is a wall. There is our existing walls 
that are composed of things like HESCO barriers that are 11, 
12, 13 feet high, cement walls, steel panels. There is no area 
around our facility that does not have a wall.
    Mrs. Watson Coleman. Of some sort.
    Mr. Starr. They were interim types of security measures 
that were put in place.
    Mrs. Watson Coleman. Does that mean that they're easily 
compromised?
    Mr. Starr. Not easily compromised at all, Congresswoman, 
but we believe that there are newer technologies and better 
types of technologies available today than those walls.
    Mrs. Watson Coleman. Thank you. I appreciate the two of you 
speaking to me first, because I have a question to both of you.
    Ms. Muniz, what is exactly the role of the Overseas 
Building Operations in the Embassy construction projects?
    Ms. Muniz. OBO is the real property manager for the U.S. 
Department of State for all of our facilities overseas. So we 
design, we build, we buy, we lease, we sell. And obviously 
construction is in our realm of responsibility.
    We execute that construction based on, I would say, two 
important factors. One is the number of desks or beds, the 
number of people who are going to be in that facility. That is 
a departmental decision that is made outside of OBO. So we take 
those base requirements and turn them into buildings. And the 
second piece of it is that we work very closely with our 
colleagues in Diplomatic Security to understand the security 
situation and make sure that any building we develop meets all 
of the security standards that they require.
    Mrs. Watson Coleman. Thank you.
    Mr. Starr, what is your overall, what is the overall 
responsibility?
    Mr. Starr. I am the assistant secretary for diplomatic 
security. I advise the Secretary of State and others in the 
Department on the levels of security that we must have and 
maintain. And under me, I have an organization that is a 
security organization and a law enforcement organization 
responsible for passport/visa fraud violations, other types of 
violations, and the security of our personnel domestically and 
abroad.
    Mrs. Watson Coleman. So with regard to security issues, who 
has the final say? Who has the final say in do this because 
this is going to secure these facilities that are being built? 
Is it OBO or is it you? Who breaks that tie if there's a 
disagreement?
    Mr. Starr. If there's a disagreement, I would say I win.
    Mrs. Watson Coleman. You win, okay.
    So my understanding is from the IG's report that there has 
been this sort of tension between OBO and your entity. Where 
are we on that? I understand that there has been a senior-level 
study group or senior-level whatever, task force, put in place 
to address some of these. What does that mean? How does it 
work? And how is it working?
    Ms. Muniz. I think we'll divide that question up.
    The tension you describe and the IG described is a natural 
tension. The OBO project directors on the ground are trying to 
execute a project that has already been agreed to with all of 
the parties and which has already been confirmed by DS to meet 
all of the current security requirements.
    To the degree that in the execution of the billion-dollar 
project changes are recommended throughout, the teams have to 
work very closely together to understand the impact of those 
changes, the impact that those changes will have on the 
execution, the costs, and the schedule of the long-term 
project.
    So I would say at the working level there is tension 
because on the DS side they are thinking: This is what we need, 
just do it now. And on the OBO side we are thinking: Okay, we 
have a big project to execute, let's figure out how we make 
this work in the larger project, and let's make sure we have 
the prioritization agreed to.
    The working groups that you referred to and this sort of 
higher-level percolation is that those things are really worked 
out and decided at the higher level. So if we see things not 
moving forward, or obviously urgent security requirements that 
need resolution but there isn't perfect clarity about which we 
should do, which we shouldn't do, and when, that's when I sit 
down with Assistant Secretary Starr, where one of my principal 
deputies, Casey Jones, sits with his colleague, the head of 
physical security, Wayne Ashbery, and we work these things out.
    Mr. Duncan. [Presiding.] The time of the----
    Mrs. Watson Coleman. So may I ask----
    Mr. Duncan. The time of the gentlelady has expired.
    Mrs. Watson Coleman. Pardon me, sir?
    Mr. Duncan. The time of the gentlelady has expired. So we 
will go now to Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Assistant Secretary Starr, while I have you here, I'm 
concerned about the State Department's proposal to build their 
own training facility in Fort Pickett in Blackstone, Virginia. 
And I want to know, you know, FLETC in Georgia serves 91 
different agencies. Why is that not sufficient for the State 
Department's security service?
    Mr. Starr. Sir, we studied FLETC, and we studied over 90 
places to try to do the type of training we want. FLETC in 
Georgia is an excellent facility. We train our agents there in 
criminal investigations. But it is a law enforcement training 
facility. It does not use the type of weapons that we use. It 
does not have the capacity for the number of people, the 
foreign service officers that we want to train. It is not ----
    Mr. DeSantis. They have expressed their willingness to make 
those accommodations, correct? They said that they would build 
new driving courses, mock embassies, and let State Department 
have primary control over that. So there is an acknowledgment 
that that would need be done, but that could be done at half 
the cost of what you are proposing to spend to have a facility 
in Blacksburg, Virginia, isn't that the case?
    Mr. Starr. No, sir. We don't believe the costs that FLETC 
can build are significantly different than our costs. The GAO 
study----
    Mr. DeSantis. But what you believe and what they produce, 
though, are two different things. So I think me and people on 
the committee who are concerned about the State Department 
being good stewards of the taxpayer dollars, I think we see a 
cost discrepancy. So you can disagree with that, but I think we 
see it's there.
    So you were going to continue.
    Mr. Starr. Sir, there is a GAO report coming out that will 
talk to the numbers that we have put down and how they have 
been carefully verified and the fact that FLETC's numbers have 
not been so quite as carefully verified.
    More importantly, sir, it is also a question that we need 
something in this area. We are going to be moving thousands of 
people a year to training. We believe that the Fort Pickett 
site, which is a military base which can take the type of 
weaponry that we are required to use, as was seen in our 
defense of the consulate in Haaretz and in other places, is not 
the types of training that FLETC does.
    Our training has, unfortunately, come to the point that we 
are much more closely aligned to the military in what we must 
do in many cases than law enforcement and we believe that Fort 
Pickett is certainly the better answer. Thank you.
    Mr. DeSantis. But why, being close to Washington, why--I 
mean, of the other agencies, presumably, I mean, they would 
like to have people close, but they go to Georgia. I mean, why 
can't people just train in Georgia if you had what you needed? 
It seems to me that that wouldn't be a big deal to put people 
on a plane and have them do the training course, then come 
back, correct? They are not commuting from the State Department 
to Fort Pickett on a daily basis. They are going to be there, 
they are going to do the training, and then they will be back, 
right?
    Mr. Starr. Sir, the training is for foreign service 
officers, Diplomatic Security agents, foreign security entities 
that we are training. Many studies have shown that we need a 
coordinated, consolidated training site. This would give us 
this site at Fort Pickett. Most importantly, it allows us to 
train with our partners, such as the U.S. Marine Corps Security 
Battalion in Quantico, and do the types of training that we 
need jointly together. They are going to have a very difficult 
time getting down to FLETC Georgia to do the types of training 
exercises.
    And FLETC does not currently on their space, they have 
acknowledged this, they cannot handle the type of weapons that 
we use. They are looking at getting another military facility 
30 or 60 miles north of FLETC Georgia that we would also have 
to go to in order to use the weapons. We can train at Fort 
Pickett.
    Mr. DeSantis. That would not be worth doing it, that saves 
a couple hundred million dollars for the taxpayer?
    Mr. Starr. Sir, again, going back to it, I would suggest 
looking at the GAO study that comes up.
    Mr. DeSantis. Well, I will look at that.
    Mr. Starr. We don't believe that it is going to----
    Mr. DeSantis. What is your, right now, what is the cost? 
Because the cost that the State Department has provided about 
how much this will cost has fluctuated a great deal. So what 
will be the costs to the taxpayer for Fort Pickett?
    Mr. Starr. Four hundred and thirteen million dollars.
    Mr. DeSantis. Okay, $413 million. I mean, it's gone from 
$416 million, $907 million, $950 million. Now we are back down 
to there. How long has that been the estimate?
    Mr. Starr. Independent estimates conducted by GSA, our 
building contractor, have brought it in at $413 million.
    Mr. DeSantis. Okay.
    Well, we are going to be conducting oversight over this, 
because I think that there has been examples, I mean, there 
were several billion dollars at State Department not accounted 
for during Secretary Clinton's tenure, and, you know, we want 
to make sure that we are getting bang for the buck for the 
taxpayer.
    I'm out of time and I yield back.
    Chairman Chaffetz. [Presiding.] I thank the gentleman.
    We will now recognize the gentlewoman from the Virgin 
Islands, Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chair.
    Good morning everyone.
    I had a question, Director Muniz, about the surge and the 
military civilian personnel and the need that that created for 
immediate office space in the time that we were having the 
surge. I know that this presented a challenge for the State 
Department requiring the necessary amount of space to be built 
quickly, safely, not doing the overruns and the mistake that 
was made in Iraq, where we had this huge compound that was 
built and we immediately downsized the number of personnel that 
were there.
    And in that instance we would be having a hearing about 
cost overruns. And in this instance we are having a hearing 
about something else, potentially.
    So Ms. Muniz, do you agree that the State Department needed 
to be careful not to overbuild on planning for the Kabul 
Embassy?
    Ms. Muniz. I would agree with that. But I would argue that 
we have been careful not to overbuild, and in the end we will 
not have overbuilt.
    Ms. Plaskett. And why is that?
    Ms. Muniz. Because we will have built to the number of 
desks and the number of beds, the requirements that we need.
    Ms. Plaskett. Okay. So unlike most embassies around the 
world, in Afghanistan most U.S. Government employees not only 
work at the Embassy compound, but they also live there, right? 
So all the support services that we take for granted on a daily 
basis here in the United States must be provided on that 
Embassy compound as well in order to support the employees that 
have to remain in that compound. Correct?
    Ms. Muniz. That's absolutely right. Whether it's dining, 
cleaning facilities, everything that you would do in a small 
city is done essentially on that same compound.
    Ms. Plaskett. Okay. And to meet the increased requirement 
in the fastest way possible, hence, you have the temporary 
facilities, correct?
    Ms. Muniz. Correct.
    Ms. Plaskett. And what benefits do those temporary 
facilities provide? Does it better--and my sense is, does it--I 
would think that it would help you to plan better for the 
permanent because you have something in which people are living 
in and functioning in on a temporary basis so that you can 
accurately plan for the permanent structure.
    Ms. Muniz. I think that's right, but I think fundamentally 
it provides facilities in which all of the staff can live and 
work until the permanent facilities are done.
    Ms. Plaskett. Okay. And I would like to hear from some of 
the other witnesses if they think that that's correct or not 
correct.
    Mr. Gulino?
    Mr. Gulino. Yes, I do. I do believe that is correct.
    Ms. Plaskett. And, Mr. Starr, what are your thoughts on 
that?
    Mr. Starr. Yes, I think it gives us an idea of whether or 
not we can support the platform. I would say that we don't get 
the efficiencies out of the temporary structures that we can 
get out of our permanently built structures, and that's one of 
the things that I think OBO factors into their planning.
    Ms. Plaskett. Okay. And in building the permanent 
structures to house all of the additional personnel and 
planning that properly, was using the temporary facilities a 
mistake?
    Ms. Muniz. I would argue that it wasn't an option not to 
use those temporary facilities. If the basic assumption is that 
based on national security priorities the U.S. Government 
needed to be in Afghanistan at the levels at which the 
administration had agreed, the use of temporary----
    Ms. Plaskett. On the date that they'd agreed to have them.
    Ms. Muniz. Exactly. The use of temporary facilities was an 
inescapable fact.
    The second priority was continue to build the permanent 
facilities as quickly as possible. Those were the two things we 
were doing.
    Ms. Plaskett. And so the expressed concern by GAO and the 
IG regarding the use of the temporary facilities, you would say 
what to that?
    Mr. Starr. I think we all have concerns about using 
temporary facilities. But as Director Muniz has said, when 
faced with the situation that we need to surge people, it was 
our choice. And I think we all have concerns about the length 
of time that we use temporary facilities. But this particular 
project, because we were having to build on the same site, 
essentially, as using them, was very complex.
    Ms. Plaskett. So the challenge is to build the temporary 
facilities, but to move quickly into the permanent ones at the 
right period of time in the challenged environment in which you 
are in in Afghanistan?
    Mr. Starr. Exactly.
    Ms. Plaskett. Okay. Thank you. I yield back the balance of 
my time.
    Chairman Chaffetz. I thank the gentlewoman.
    We'll now recognize the gentleman from Georgia, Mr. Carter, 
for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    And thank all of you for being here.
    Mr. Courts, I will start with you. In planning projects 
such as this on this scale, are value engineering studies 
important?
    Mr. Courts. Yes, they are. That is a very well-established 
practice that both the Federal Government and the private 
sector have used for decades to reduce costs while still 
maintaining the quality in the performance of a project, and 
especially one of this size. It is also required by both OMB 
and by OBO itself.
    Mr. Carter. So it is required by OMB?
    Mr. Courts. It is, yes.
    Mr. Carter. Okay. Let me ask you, value engineering studies 
are sometimes referred to as cost-containment studies.
    Mr. Courts. Right.
    Mr. Carter. Because that's what they're intended to do, 
contain costs, and to make as sure as we can that we don't have 
cost overruns, correct?
    Mr. Courts. That's correct.
    Mr. Carter. Mr. Starr, let me ask you. It's my 
understanding that the State Department's Overseas Building 
Operations didn't follow cost-containment policies in this 
project. Is that correct, Mr. Starr?
    Mr. Starr. I think Director Muniz would have a better 
answer to that. My understanding is that certain ones were 
done, certain may not have been--certain ones may not have 
been.
    Ms. Muniz. So I'm the director of OBO, so we are 
responsible for conducting----
    Mr. Carter. I understand that, and congratulations.
    Ms. Muniz. Thank you. We're the ones responsible for 
conducting the value engineering studies. And as I mentioned in 
my testimony, we conduct those, they're valuable. We did not 
conduct it in the 2009 project.
    Mr. Carter. But you agree they are valuable?
    Ms. Muniz. Yes, absolutely.
    Mr. Carter. Okay, thank you. Thank you.
    Mr. Starr, can I get back to you.
    Mr. Starr. Sure.
    Mr. Carter. Mr. Starr, my colleague from Florida earlier 
talked about the proposed new facility being built near Fort 
Pickett in Virginia instead of being built--or instead of 
utilizing the facilities that already exist at FLETC in Glynco, 
Georgia. Is that correct?
    Mr. Starr. Yes, sir, Congressman. I want to answer your 
question.
    Mr. Carter. Okay. Yes, sir.
    Mr. Starr. But I do feel duty bound to say we were brought 
up to discuss Afghanistan.
    Mr. Carter. I understand that. I understand that. But what 
we're brought up to discuss is these cost overruns and the 
waste of money by the State Department. I think more 
importantly, that's what we are interested in.
    Because as all of us know, when you're in a hole you stop 
digging. And we're in a hole here and we need to stop digging. 
And we don't let--we don't need to let happen what has already 
happened before. We want to learn from our experiences.
    Now, you said earlier that the cost of this new facility 
would be $413 million if it were built in Fort Pickett, is that 
correct?
    Mr. Starr. Yes, sir.
    Mr. Carter. Now, originally it was set at $950 million. How 
did it get down to $413 million?
    Mr. Starr. The Department of State started this project 
looking at a hard skills training site only. At some point the 
Department also asked a question: Should we, instead of just 
using it for hard skills, combine all security training, soft 
and hard skills? GSA was asked to look at that and GSA told us 
that in order to do both it would cost about $900 million or 
more.
    We went back after that and said: That's not supportable, 
we don't require the collocation of hard and soft skills. And 
when we went back to GSA and said concentrate solely on the 
hard skills security training, that's when the costs were 
revised and showed that it is now $413 million. It does not 
include----
    Mr. Carter. Mr. Starr, it's been said that the greatest 
threat to our national security is our national debt, and I 
believe that to be true, and I'm very concerned about that. And 
you say you're not here to discuss this, but you're here to 
discuss Kabul. Well, we're here to discuss cost overruns and 
the waste of taxpayers' money, and there is no better example 
than this.
    You've got a facility in FLETC that trains over 91 
agencies, but yet you're saying that you've got to have one of 
your own, that you can't utilize this. And I'm having trouble 
understanding that when FLETC has already said that they could 
do this at almost half the cost.
    Mr. Starr. A, we don't believe they can do it at half the 
cost. B, most of every one of those facilities has additional 
hard skills, higher skills training facilities. The Secret 
Service has its own higher skilled training facility than FLETC 
offers. The Air Marshals have higher skills training centers. 
The U.S. Marshals have higher skill training centers than 
what's offered at FLETC.
    Mr. Carter. So you believe that you can spend $416 million 
and build another facility, a stand-alone facility, yet we 
already have one that is available. Is there a report by OMB 
about this?
    Mr. Starr. OMB has looked at this. There is not a report 
that I am aware of.
    Mr. Carter. Can you provide me a report with them?
    Mr. Starr. The GAO report is coming out very soon.
    Mr. Carter. And will there be a report from OMB?
    Mr. Starr. I'm not OMB, sir. I can't tell you that.
    Mr. Carter. Would you work with me to request a report from 
OMB?
    Mr. Starr. Sir, I think the administration has made its 
decision. We have made a decision that it is in the best 
interest of all of us to move ahead with Fort Pickett. OMB has 
responded to Congress several times that I'm aware of. A 
request for OMB would--to them to respond to you would have to 
come from them, not from the State Department.
    Mr. Carter. Mr. Starr, I'm not going to accept that. And 
I'm going to tell you, I'm going to continue to fight this 
because I think you're wasting taxpayers' money. I think you've 
got a perfectly fine facility that can be utilized without 
building another one, without getting us further into debt, and 
without wasting taxpayers' money like the State Department has 
done time and time again.
    Mr. Starr. I do not want to ever waste taxpayer money, sir. 
I think that the outcoming GAO report will show that this is 
not a waste of funding. We have to build 90 percent of the 
facilities that we would have to build in Georgia--would have 
to be built in Georgia as well as Fort Pickett. Georgia does 
not have the facilities that we need.
    Mr. Carter. They have proven, and they have said and they 
have shown that they can do that at a lower cost.
    Mr. Starr. No, sir they have not. And I think the outcoming 
GAO report will show that.
    Mr. Carter. Thank you, Mr. Chairman.
    I yield the remainder of my time.
    Chairman Chaffetz. Thank you. And an interesting topic, and 
we will follow up on that.
    We'll now recognize the gentlewoman from Michigan, Mrs. 
Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chair, and to the committee 
that's speaking here today.
    Ambassador Hays, according to the 2014 report, Aegis billed 
the government without required documentation and with 
inadequate invoices. What steps has the State Department taken 
to ensure that the administrative and logistic issues are 
addressed before the issuance of new contracting programs, and 
how long does it take to identify or rectify these 
discrepancies?
    Mr. Hays. Ma'am, that was an audit report, and I was not on 
that team, so I can't speak to the findings of that team, but I 
certainly can get back to you through our legislative assistant 
and give you the information you require.
    Mrs. Lawrence. So you have read the audit?
    Mr. Hays. I have not read that audit, no.
    Mrs. Lawrence. Are there any other--who reads the audit, 
then, once its issued?
    Mr. Hays. The senior staff of the OIG. Individual teams 
don't necessarily read each other's audits unless they're 
conducting an inspection of that specific area. And we go from 
area----
    Mrs. Lawrence. Ambassador, let me go to a statement that 
you have said, and hopefully you'll be aware of this. You 
highlight in your statement the lack of coordination between 
the Bureaus of Diplomatic Security and Overseas Building 
Operations. And since this conclusion, what are the best 
practices you can share with me to best manage these multiple 
projects and the lack of space available to complete them?
    Mr. Hays. Well, there were two recommendations that we made 
in our inspection report: One was in the classified, and the 
other was in the unclassified. The first one was that we needed 
a dynamic master plan. And we raised that in our report, and we 
raised it with Director Muniz. The second was that they put 
together a management oversight team between the senior staff 
of OBO and DS. To the best of my knowledge, they have done the 
latter. Director Muniz has said what she has done on the first 
issue.
    Ms. Muniz. If I could add on the master planning, I'd like 
to clarify a point that was brought up earlier by the OIG about 
the recommendation for a master plan and the fact that that 
recommendation remained open. We have a master plan for Kabul. 
The recommendation is still open because we are waiting for 
funding approval from Congress. We notified the OIG of that 
fact in April of this year. So the plan is complete, but the 
execution of the plan will not be approved until we receive 
that approval from Congress. I just wanted to clarify on that 
issue.
    Mrs. Lawrence. I thank you for that. I want to go back to 
you, Director Muniz, right?
    Ms. Muniz. Muniz.
    Mrs. Lawrence. I really want a sense of assurance. There 
has been, and you must admit, some concern about the operations 
in the past. Moving forward, are you positioned and empowered 
to ensure that these concerns about lack of documentation, 
master planning--because that's the concern. We can talk about 
what happened in the past, but what I'm very passionate about 
right now is in your role, and you've identified a couple times 
that you are the Director and you have this responsibility, 
where do you see us correcting these things of the past? And 
you can't just keep doing the same things and expect a 
different result. So I really want you on the record saying, as 
the Director, how are you going to correct these concerns that 
we have?
    Ms. Muniz. Thank you for the question.
    I think that we have very strong master planning programs, 
and I've argued that we have planned, designed, and built on 
those master plans in Kabul. My argument in Kabul is simply 
that in these environments that are ever-changing, we have to 
have a different approach, and we do have a different approach. 
We can't develop a master plan at the beginning of a project 
that was awarded in 2009 and expect that that master plan 
remains static. What we are building in Kabul on the Embassy 
compound is what we need, and we have evolving requirements 
that reflect later phases of a master plan. So I think we have 
in place the planning mechanisms and the budgeting mechanisms 
to let Congress know the direction that we're going in in such 
a kinetic environment, which is unusual.
    Mrs. Lawrence. Thank you.
    I yield back my time.
    Chairman Chaffetz. And before she yields back, earlier, the 
Director had agreed to give us the original plan and then the 
most updated plan. What's a reasonable time that you'd provide 
those to us?
    Ms. Muniz. Well, let us get back to you after this. Those 
plans exist, so in theory, we could get it to our folks in the 
Department to get those to the committee, but I know that 
there's a long queue of documents making their way to you, but 
we will try to get those to you as quickly as possible. We can 
also in the interim offer a briefing and walk you through the 
entire master plan.
    Chairman Chaffetz. That would be great. What I'm trying to 
look for a specific date, just because--at what point do we 
say, Hey, you're not fulfilling what you're said you were going 
to do? We've had, unfortunately, these challenges in the past, 
so I'm just trying to get you to agree to some sort of date. 
You pick it, but I want it to be somewhat reasonable and 
timely.
    Ms. Muniz. Why don't we get those documents to you within 
the month.
    Chairman Chaffetz. By the end of July? Is that fair?
    Ms. Muniz. Within a month. It's the 9th of July. It would 
mean the 9th of August.
    Chairman Chaffetz. Okay. By the 9th of August.
    And we will invite you as well.
    Mrs. Lawrence. Okay. Thank you.
    Chairman Chaffetz. Thank you. I appreciate that.
    I will now recognize the gentleman from Oklahoma, Mr. 
Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    Mr. Starr, you're a smart man with a lot of security 
knowledge. Is a footprint more secure if it's smaller or 
larger?
    Mr. Starr. A footprint, sir?
    Mr. Russell. Uh-huh.
    Mr. Starr. A larger one is going to require a lot more 
resources to secure; not necessarily more secure, less secure. 
I would tell you that our consulate in Haaretz, which was much 
smaller than the Embassy, we successfully defended that against 
a complex attack, and we've also successfully defended the 
Embassy against attacks.
    Mr. Russell. Well, I would agree with that. And, in fact, 
at the Embassy in Kabul, even after it was vacated for a 
decade, it was a secure building. It had to be breached by the 
roof. When we went in there in the early days, I recall seeing 
George Bush's picture on the wall with Mr. Shultz as Secretary 
of Defense, 1989 calendars on the wall, Volkswagen Golfs in the 
garage.
    I guess this notion that we have to have 5,500 people on a 
compound is just a mystery to me. How do you justify that?
    Mr. Blanc. Sir----
    Mr. Starr. Allow me to turn to my counterpart, sir. I'm the 
one that's given the task to secure them.
    Mr. Russell. We appreciate Ms. Muniz, and she has been 
gracious to allow us to beat up on her in previous testimony, 
but she has also stated clearly here in this hearing that any 
dispute, which the GAO and the IG have laid out, which they're 
in agreement, by the way, on security issues, and Ms. Muniz in 
her testimony today said that any dispute on security matters, 
you win; it's a deferment.
    And so now what I see is this no desire to streamline 
infrastructure. We see a support of the support, and then the 
more support that comes in, it has to be supported, and then it 
has to be secured, and then the logistics of that, and now 
we've got 5,500 people, and we're guarding them with Gurkhas, 
which I have great admiration for the Gurkhas. I've been in 
environments with them, tough, you know, sharp knives, a lot 
respect for them. However, we have created a situation where 
this thing is massive. And you, by your own admission, in 
talking about Haaretz and how it was defensible, how can you 
justify this enormous footprint?
    Mr. Blanc. Sir, I think that the point is that we obviously 
have a different set of requirements for professional staff in 
Kabul than we did in Haaretz. You know, in heart, I think 
professional staff, we had 10 or a dozen. In Kabul, we are now 
going to be running all of our operations in Afghanistan 
because we've pulled back from short locations. We, of course, 
have a much larger direct-hire population of people who are 
doing the work of diplomacy, doing the work of development. 
That number is drawing down in terms of the current agencies, 
but it's actually going to go up because you're going to have 
the Security Cooperation Office come under the Embassy umbrella 
at a certain stage. You've got other agencies that are going to 
stop being self-supporting at a certain stage.
    And the truth is that in the current situation in Kabul, 
you've hit the nail on the head, if you've got several hundred 
people doing professional work, you're going to have thousands 
more who are providing the life support services of a small 
city, who are securing that, who are providing movement 
security.
    Mr. Russell. Look, in the early days all the way up to 
2009, and we had an embassy there that was secured by a Marine 
security company--by the way, they do that. That's part of 
their mission. The Marines, they secure embassies. I mean, this 
is no revelation to anyone on this panel. And yet we're talking 
about this insatiable need for size and girth.
    I don't know how--I guess my question, you stated in your 
own testimony, Mr. Blanc, I appreciate you piping up, that the 
Department of State needs to be expeditionary in nature. I 
believe those were the words that you used. So how can a four 
times increase in the operations since 2009 be expeditionary?
    Mr. Blanc. Well, sir, I think there are a few things. First 
of all, there are a number of security challenges in 
Afghanistan that are obviously not normal to----
    Mr. Russell. I'm aware of them. I even lived in a safe 
house in Kabul. I'm very familiar with the security structure 
and the dangers in Afghanistan.
    Mr. Blanc. And I would say further, sir, the security 
situation has evolved over time. When I first lived in 
Afghanistan in 2002, the situation was very different and the 
Embassy at the time was secured very differently. Now the 
number of--you know, the security requirements for movement--we 
talked about the road to the airport--the situation is very 
different. And so, inherently, the support requirements have 
also changed.
    I would, though, challenge, sir, the idea that we have an 
insatiable need for girth. In fact, the civilian staff surged 
with the military surge and is now drawing back. And to the 
extent that there is going to be girth, it's really going to be 
girth from other agencies coming in under the State Department 
umbrella. So I believe that the support services that we have, 
both life support and the security support, are necessary. I 
don't think that they can be replaced in Kabul at this time. 
And I think----
    Mr. Russell. But it's self-perpetuating.
    And if I may ask for an indulgence, Mr. Chairman.
    They're self-perpetuating, and the larger we increase the 
footprint, the more need to increase the footprint. I mean, at 
some point--and it's easy to see how it's happened. In fact, 
the GAO and the IG agree, there's not been this strategic 
master plan. And then we hear from Ms. Muniz, you said we can't 
develop such a plan. My reply to that is, nonsense. Develop the 
plan and then adjust it. We do that all the time at State. We 
do it in the military. We do it in Congress even. I know that's 
shocking to some people that we actually plan.
    Ms. Muniz. That's precisely what we did. I argued that that 
is precisely what we did. I did not say that was not necessary 
or possible.
    Mr. Russell. Well, then, you have mentioned, though, that 
the regular plans, that the standard plans were not applicable. 
Even in this testimony today, you said that the international 
construction and safety standards needed to be taken into 
account. How could those possibly be any better or different, 
or we've not seen these international construction safety 
standards, I believe is what you called them today. How would 
that deviate from standard embassy designs with military 
security in the early dangerous days and then you enhance it 
later?
    Ms. Muniz. I'm not sure which document you're referring to.
    Mr. Russell. I'm not. I'm picking from your testimony 
today----
    Ms. Muniz. That's----
    Mr. Russell. --and I quote----
    Ms. Muniz. That's not my----
    Mr. Russell. --international construction of safety 
standards. So I'm as baffled by it as you are. What would those 
be?
    Mr. Starr. Congressman, the security standards are based on 
the Overseas Security Policy Board standards. I actually chair 
the Overseas Security Policy Board with the heads of the other 
agencies that work overseas.
    I would say that in our normal buildings that we build 
around the world, and we incorporate those standards in--and 
every building that OBO builds meets those standards--we're in 
a situation where we have been asked to stay in what is 
essentially a war zone, and that presents challenges even on 
top of the regular Overseas Security Policy Board standards. 
And these are some of the things that we've had to adjust to as 
the security situation has declined.
    Mr. Russell. And I appreciate that. And I know----
    Chairman Chaffetz. The gentleman's----
    Mr. Russell. I----
    Chairman Chaffetz. The gentleman's----
    Mr. Russell. I'm sorry----
    Chairman Chaffetz. The gentleman's time is up.
    Mr. Russell. --Mr. Chairman. If there's time later, I'd 
like to follow up, if I may.
    Chairman Chaffetz. I thank you.
    I now recognize the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. I thank you for holding this important 
hearing, and thank you to all the panelists.
    I just want to talk about really the security concerns that 
we have in high-threat Kabul. The Embassy has consistently 
remained one of the most, I'd say, high-threat environments for 
our overseas personnel. And in February, in 2014, a vehicle-
borne explosive device killed two Department of Defense 
contractors, and just last month, a suicide bomber targeted a 
NATO convoy about 500 yards from the Embassy.
    And so I'd just like to ask Mr. Gulino, your company, 
Aegis, is a prime security contractor, and your employees are 
on the front lines everyday in a very dangerous area. Can you 
give us an overview of the security services your personnel 
provide to the Embassy in this high-threat area, and can you 
explain how Aegis personnel maintains a secure environment with 
changing and often very challenging, to say the least, 
political dynamics?
    Mr. Gulino. Yes, I'd be pleased to. Let me first say that 
the security strategy--the strategic plan for security is 
developed by our customer, the Department of State. We hire the 
very best people, and we deploy them according to the plan, 
which is ever evolving, ever changing, based upon the 
conditions in Kabul at any given time.
    So, having said that, the services that we provide in force 
protection are primarily in six areas: We provide static 
security, which is kind of like going through a gate when you 
come into the building here, obviously. We provide mobile 
security, which is assisting in movement of people. We provide 
convoy protection. We have explosive detection dogs, EDDs, that 
are handled by trainers. And we provide what we call ELU, which 
is basically elite protection for codels, people like yourself, 
that come in. We have teams that provide protection to them. 
And then, lastly and importantly, we have emergency response 
teams. And those teams are positioned at strategic locations, 
and they're typically in an MRAP-like vehicle, BearCat, they're 
called, and they have a combination of EMTs, emergency medical 
technician people, as well as guards, security personnel.
    And, importantly, we train our people so that there's 
someone on that team who is responsible for command and control 
and makes the decisions as to what the appropriate response 
should be based upon a call or a situation that comes in. So 
those are the six areas that we provide services.
    And I want to just say that we do have a mixture of the 
three groups that I mentioned, including the Nepalis Gurkhas, 
and they are quite good soldiers.
    And I want to--for the record, I'd like to be able to say 
that duty of care to our employees is of utmost importance. 
And, yes, we didn't have some posters opened up in Nepali 
initially, but we take care of our Nepalis. When that 
earthquake hit, the first thing we did was pull all of our 
employees. We found out--we gave them phones. We gave them 
contact back to Nepal. For the ones that were in training in 
Jordan, we gave them phone cards so they could call. We 
determined that there were a few people that needed to go out 
immediately. Fortunately, there were no lives of family members 
lost, nor of employees on leave. We raised over $30,000 to give 
to those employees to repair their homes.
    Mrs. Maloney. Good.
    I'd like to ask Ambassador Hays and Mr. Courts, given what 
you've learned in your investigations and your oversight, I'd 
like to hear what security recommendations would you put 
forward? What ideas do you have that we could improve our 
security in this area? Ambassador?
    Mr. Hays. The dynamic in a war zone is extremely difficult. 
The changing numbers of people going in and out, the policy 
dynamic affecting the personnel in country, all of these play 
into the need for solid planning, for worst-case-scenario 
planning, for very close collaboration between the policy and 
the implementers of both construction and security.
    We believe that it is important to have long-range dynamic 
planning. That means that not only do you have a plan out 
there, but you also are working with others that are involved 
in this constantly to make sure that that plan meets all the 
requirements on the ground and that you put security first.
    Mrs. Maloney. Okay. My time has expired. Thank you. Thank 
you for your service.
    Chairman Chaffetz. Thank you.
    We now recognize the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Madam Director, I'm going to start with you to say thank 
you. The last time you were here, I think Mr. Russell talked 
about the fact that it could be contentious, would be maybe an 
adjective or a verb to describe what went on that particular 
day, but I also want to acknowledge the fact that after that 
hearing, you made a personal attempt to come and not only brief 
me and my personal staff, but to follow up, and in a time when 
all the headlines are about a lack of cooperation. So I just 
want to say, thank you, and----
    Ms. Muniz. Thank you.
    Mr. Meadows. So, Mr. Courts, let me come to you because Mr. 
Starr is characterizing your new GAO report as going to be 
giving him an A-plus, is kind of the direction that--I mean, 
from his testimony just a few minutes ago. Would you 
characterize the new report that you're going to be putting out 
is something that we want to publish, I guess? Let's put it 
that way.
    Mr. Courts. Congressman, we have not released that report 
yet to our original requesters, and I can't discuss it until 
that report is actually released.
    Mr. Meadows. All right. But Mr. Starr knows what's going to 
be in that report?
    Mr. Courts. He has seen a draft report, yes.
    Mr. Meadows. So since you're not going to comment on that, 
would you characterize his testimony as it being an A-plus and 
as being accurate?
    Mr. Courts. Congressman, I can't comment on that, as the 
result--the report hasn't been released yet.
    Mr. Meadows. All right. When will that be released?
    Mr. Courts. We're still working that out with our client.
    Mr. Meadows. Okay. So, Mr. Starr, let me come to you. 
You've seen the report, or you've at least seen your draft. Is 
your characterization of it giving you a glowing report, is 
that accurate?
    Mr. Starr. I think the report is a fair and balanced 
report, sir. I don't think it's an A-plus for anybody. I think 
that it's best that we wait until the report come out and 
people can judge where we're going on the merits of the report.
    Mr. Meadows. So your reference to it was only referencing a 
short portion of that as it relates to your ability to provide 
a secure location? Was that your testimony? I guess here's what 
I'm finding, is we've got all kinds of testimony that's going 
back and forth. And, Mr. Starr, my concern is, is here, as Mr. 
Russell was talking about, we've got this big footprint. As I 
understand it, we're bringing people in in helicopters into the 
facility currently, is that correct, because it's too 
dangerous? Other modes of transportation.
    Mr. Starr. Yes.
    Mr. Meadows. So if it is indeed that dangerous and the core 
mission of the State Department is diplomacy, how do you 
reconcile the two? I mean, because if it's so dangerous that we 
can't get out and do our diplomacy, are we not just building a 
military structure in Afghanistan?
    Mr. Starr. Congressman, that's a very fair question. And 
Jarrett, I think, has some comments on this as well, but I will 
say one thing. The responsibility to protect our people at our 
Embassy----
    Mr. Meadows. I don't deny that. Let me just tell you, the 
Director knows that I am with her on that particular----
    Mr. Starr. But that's one portion of the mission, so that 
we don't lose the platform. The second----
    Mr. Meadows. That's not the core mission, though, Mr. 
Starr.
    Mr. Starr. Exactly, but the core mission is to conduct 
diplomacy. And beyond securing the Embassy, we have to have 
programs that get people out. We have to get them to these 
meetings.
    Mr. Meadows. All right.
    Mr. Starr. We have to make sure----
    Mr. Meadows. But do you understand how the American people 
have a real hard time with this? We're spending a billion 
dollars to create a facility that we've got to helicopter 
people in and out of, that they can't really do diplomacy, and 
they're saying, well, why are we doing that? I mean, why would 
we do that, Mr. Starr?
    Mr. Starr. I would argue that we are conducting diplomacy.
    Mr. Blanc. Sir, if I may, I mean, I think that is exactly 
the point: We are conducting diplomacy. There are some routes 
in Kabul, including route to the airport, that occasionally get 
and more and less dangerous, and our colleagues from Atlantic 
Security take very good care to make sure that we have the best 
available security in those instances, but I can assure you, 
and I spend quite a bit of time there myself, our people get 
out, they are hands-on involved with the Government of 
Afghanistan----
    Mr. Meadows. All right. So give me the top three diplomatic 
success stories that you can share, then? I mean, you're saying 
you're creating--what are the top three--what would be the 
headlines of the Washington Post tomorrow, what are the top 
three that they've accomplished?
    Mr. Blanc. Sir, well, first and foremost, I would say it's 
the successful transition from President Karzai to President 
Ghani last summer.
    Mr. Meadows. Okay. But that was not diplomatic in its 
nature.
    Mr. Blanc. Yes, sir, it was. That was deeply--that 
involved--that was a----
    Mr. Meadows. So that had everything to do with the Embassy?
    Mr. Blanc. The United States Embassy was deeply engaged in 
that successful transition, and there were----
    Mr. Meadows. All right. What are the other two?
    Mr. Blanc. So the next thing I would propose to you, sir, 
is that we have seen a substantial change in the nature of the 
relationship between Afghanistan and Pakistan since President 
Ghani came into office. That has been largely due to President 
Ghani's courageous actions and reciprocation from Pakistan. 
But, again, I don't think either of those countries would deny 
that the United States and our Embassies in both of those 
countries have played critical facilitating roles.
    And then, finally, sir, I would say that we have had a 
substantial long-term success in terms of some of those things 
that I mentioned in my initial testimony of helping create a 
sustainable Afghan Government, which is able to provide core 
services for its people, which is standing up its military. 
That's obviously a Department of Defense role, but also an 
embassy role in the political aspects of it, which is providing 
educational services, which is providing health services. I can 
keep going, sir, but I am----
    Mr. Meadows. Well, we'll follow up. My time has expired.
    I'll yield back. But I would welcome your follow up.
    Chairman Chaffetz. I thank the gentleman.
    Now recognize the gentleman from Virginia, Mr. Connolly, 
for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And, welcome, to our panel.
    Mr. Blanc--and I'm going to ask you to pull the mic closer 
so we can hear you. Thank you.
    Obviously, it's always a balancing act, isn't it, security 
and diplomacy? We have to make our facilities secure so people 
aren't harmed, including people who are serving in country, and 
certainly not our diplomats, but on the other hand, sometimes 
security can circumscribe our ability to carry out our mission 
in a country because security can become so tight. Would that 
be a fair characterization, from your point of view?
    Mr. Blanc. Sir, I think that's absolutely a fair 
characterization. And we're constantly looking for that right 
balance.
    Mr. Connolly. When I was--and that's going to vary from 
country to country, is it not?
    Mr. Blanc. Yes, sir.
    Mr. Connolly. So your challenge in San Jose, Costa Rica, is 
quite different than Kabul, Afghanistan?
    Mr. Blanc. Not only that, sir, but our challenges in Kabul, 
Afghanistan, is different from month to month and has changed 
substantially over the course of our mission.
    Mr. Connolly. Speaking of which, when Mr. Lynch and I 
traveled together to Kabul several years ago, we stayed on the 
compound, but I think there were, like, little wooden 
buildings, little cottages we stayed in. I forget what they 
called them. But they certainly weren't reinforced. And we were 
on the Embassy compound. And at least at that time, we weren't 
overly concerned about our personal security. There had been 
some lobbing of grenades or rocket shells into the compound, as 
I recall, but not while we were there, and we weren't, as I 
said--either that or maybe the Embassy wasn't overly concerned 
about Members of Congress being overly secure. I don't know.
    Has the situation deteriorated such that we are now 
concerned about that in Kabul?
    Mr. Blanc. Sir, I'll start, and then I'll ask Mr. Starr to 
continue. The security situation in Kabul has substantially 
changed over time. I mean, starting from 2002, where it was 
relatively permissive, through a number of years where it got a 
little bit worse over time but was still generally permissive, 
it is at a very much more difficult stage right now. The 
Government of Afghanistan at the end of last year took full 
responsibility for the security of their country. They are 
exercising that responsibility quite well, they are standing in 
the face of a vicious onslaught, but there is still a real, you 
know, result in terms of everybody's personal security, 
Americans, Afghans, everybody else, as that transition settles 
in. And so, yes, sir, the situation has changed. And Mr. 
Starr----
    Mr. Connolly. Well, actually, the verb I used was 
``deteriorated.''
    Mr. Blanc. Deteriorated, yes, sir.
    Mr. Connolly. You agree with that----
    Mr. Blanc. Yes, sir.
    Mr. Connolly. All right. Mr. Starr.
    Mr. Starr. Taliban networks, particularly the Haqqani 
network, have shown themselves to be dedicated to trying to 
attack Western and Afghan institutions in Kabul starting a 
couple of years ago, and it has reached quite a crescendo. The 
numbers of attacks and the different types of attacks have been 
very difficult to handle. In some cases, they've been very 
successful. In many cases, they have been unsuccessful, either 
from the efforts of the Kabul Government, the Kabul security 
forces. Sometimes it is Western security forces like ours that 
have protected the people and made sure that our people were 
safe. But it's undeniable that the number of attacks has grown 
tremendously in Kabul.
    Mr. Connolly. Thank you. I think that's something that 
needs to be underscored in terms of the environment we're 
facing in Kabul.
    Ms. Muniz, Mr. Courts in his testimony today recounts a 
comment of a State Department official explaining the challenge 
we faced with the surge in Afghanistan, and, quote, ``given 
concerns about security in Kabul and pressure to get permanent 
hard facilities built as soon as possible, State was not going 
to act on any recommendation that would delay getting the 
contracts awarded and the facilities built.''
    Is that a fair statement, from your point of view, and do 
you want to elaborate? In fact, would you elaborate.
    Ms. Muniz. I think that's a fair statement. I would qualify 
only that we wouldn't do--I think you used the word ``any,'' or 
the quote used the word ``any.'' I think there's----
    Mr. Connolly. On any recommendation. That's right.
    Ms. Muniz. I think there are some recommendations that we 
might have considered worthwhile to delay the award of a 
project. I would put security among some of the highest 
requirements, but I would say really the goal has been to 
continue to press forward with construction of the permanent 
facility. So that statement is generally true.
    Mr. Connolly. And my time's running out too. All right. The 
security situation has deteriorated in Kabul, and as you point 
out, not just for us, but for everybody. That's tragic and 
needs its own examination.
    In your view, Ms. Muniz, the decisions we made and 
executed, is the compound more secure today than it was, say, 
when I was there back in 2009 and 2010?
    Ms. Muniz. I believe it is significantly more secure. And 
as I mentioned earlier, the ability to move 900 people into 
safe office buildings is a huge milestone, and in November, 
nearly 300 into another residential facility. So I would say 
yes.
    Mr. Connolly. Thank you.
    My time is up, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from Tennessee, Mr. Duncan, 
for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman. I think all the 
questions that need to be asked have been asked, but I would 
like to place a few comments on the record.
    First of all, I want to say that I strongly agree with Mr. 
Mica in talking about how ridiculous the waste of all this is, 
the excessiveness of all this is, and that he mentioned the Taj 
Mahal. And The Fiscal Times reported a few weeks ago, and it 
said: This year the State Department allocated $1.11 billion to 
cover the 2009, 2010 contract costs as well as other expenses 
for constructing the facility. Once it is complete, the Embassy 
will have 1,487 desks and 819 beds.
    And this is in a country that, according to another 
publication, says: We're reducing our Afghan presence from 
32,000 troops to 9,800 by year's end, with half that number 
remaining in 2015. Only a small force to protect the Kabul 
Embassy and manage security would remain after 2016.
    I mean, we're practically all leaving and yet we're still 
spending, as Mr. Mica pointed out, almost $2.2 billion. This is 
in a country that has a total GDP of just slightly over $20 
billion, $20.3 billion, 30 million population. The people over 
there have to get by on an average of less than $2 a day. They 
must just be astounded. I think probably they must be laughing 
at us on how much money we've been spending over there. And, 
you know, I've seen for years the easiest thing in the world to 
do is to spend other people's money. I remember Admiral 
Rendell, who later became Governor of Pennsylvania and later 
became the National Democratic Chairman, when he was mayor of 
Philadelphia in testimony before the House Ways and Means 
Committee many years ago, he said: Government does not work 
because it was not designed to. He said there's no incentive to 
save money, so much of it is squandered. There's no incentive 
for people to work hard, so many do not. That was his quote.
    And certainly it seems to me that mega hundreds of millions 
have been squandered and are still being squandered over there.
    Last month, David Keene, who spent 27 years as head of the 
American Conservative Union and is now the opinion editor of 
The Washington Times, he wrote this about our unnecessary wars 
in the Middle East and our failed attempts at nation-building. 
He said: As a result of our wars and attempts at nation-
building in the Middle East, there is a generation of young 
Americans who have never known peace, a decade in which 
thousands of our best have died or been maimed with little to 
show for their sacrifices. Our enemies have multiplied, and our 
national debt has skyrocketed.
    And I think that all of the people who have any 
responsibility or role at all in going along with the 
construction of this massive project in Afghanistan should be 
ashamed. I think it's very sad what we've heard here today. And 
I just wanted to place those comments on the record.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman.
    We'll now recognize the gentlewoman from Illinois for 5 
minutes, Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I'd like to ask about the inspector general's report from 
October on the Aegis contract to provide security.
    Mr. Chairman, I'd like to request that the report actually 
be entered into the record.
    Chairman Chaffetz. Without objection, so ordered.
    [The information follows:]
    https://oig.state.gov/system/files/aud-mero-15-03.pdf
    Ms. Duckworth. Thank you.
    Mr. Gulino, thank you for being here today. In this report 
from October, the inspector general raised a number of 
problems, and I'd like to get your responses to some of these. 
The State Department's contract requires Aegis to maintain 
documentation of each employee's training and security 
clearance, but the IG found 25 of 333 files, or 8 percent, were 
missing 49 required personnel training or investigation 
documents. Can you explain why the documentation was missing?
    Mr. Gulino. Early on, when we took that contract over, 
there were--we took an existing workforce over, and it took a 
little bit of time to get all the documentation and the records 
right, the entire program up to WPS standards, which we did. We 
worked in concert with the State Department. All of our records 
are up-to-date. State Department comes in and audits our 
records. We keep dual sets of records. The same exact record 
that exists in Kabul exists in our Washington office. They have 
audited twice this year, and of those two audits, they found 
one discrepancy, a document that--we typically they flag if we 
don't have something--that needed to be added in, and it was 
added in after that. So the documentation is complete now. 
There is nobody that goes out to Afghanistan that doesn't have 
a clearance and also doesn't have the appropriate training, 
whether they're U.S. or whether they're TCNs, third country 
nationals, from Nepal.
    Ms. Duckworth. Now, were there any people there--so the 
report actually says seven Aegis U.S. citizen employees working 
in various positions in Kabul had no documented security 
clearance investigations. So what you're saying is that they 
had them. It's just--the documentation needed to be cleared up, 
and that that problem has been solved?
    Mr. Gulino. The problem has been solved. It's either one of 
two things. Yes, it's either that when we assumed the workforce 
from another contractor, that documentation didn't exist, and 
we put it together, or the clearance wasn't appropriate. We 
trained everybody, and we got all the documentation up to WPS 
standards.
    Ms. Duckworth. Okay.
    Mr. Gulino. We have no further problems in documentation or 
clearances.
    Ms. Duckworth. That's good to hear.
    The IG also reviewed invoices that were submitted by Aegis 
totaling about $217 million, and they questioned about $8 
million--let me just quote the amount--$8,642,485 in costs, 
about 4 percent of the contract. They said that those 
invoices--57 invoices are possibly--of those invoices, 8 
percent, 457, were possibly unallowable are not supported in 
accordance with contract requirements. Do you know what those 
invoices were for?
    Mr. Gulino. Typically they were either--well, they were 
either for labor or for reimbursable items. We have provided--
we worked with State Department. We've provided all of the 
documentation required to have the appropriate backup for those 
invoices, and we worked with them since that audit was out.
    And I also mentioned earlier that independent of the IG 
audit, Aegis conducted its own audit of the first year of the 
contract on its own with its own people and presented all of 
the discrepancies and clarified all the discrepancies. We 
looked at over 71,000 line items and compared a document called 
a muster to a Delta accounting program to time sheets to 
biometrics, and we are now proceeding on auditing the second 
year of the contract on our own without any requests from the 
government or the IG.
    Ms. Duckworth. Okay. Do you know how much of that $8.6 
million ended up being allowed or how much was disallowed?
    Mr. Gulino. I'm not aware of any disallowances at this 
point. We've presented all the documentation to the State 
Department, and they've not come back to us with any 
disallowances to the best of my knowledge. If there were, it 
has to be minor. The audit that we conducted verified that. 
We----
    Ms. Duckworth. So you're saying the gaps in the billable 
hours are from other--the issues with those invoices were 
partially as a result of you taking over a contract, and you 
fixed those problems?
    Mr. Gulino. Right. That's part of it. We took--when you 
take a contract over in any--in any instance where you take an 
existing workforce over and a new contract, especially when the 
procurement period is quite long, that is, from the time an RP 
is issued until the contract is awarded, the scope of work 
changes.
    In a situation like Afghanistan, we went into it, and the 
State Department understandably said, you know, we don't want 
those posts anymore. Take 880 people. We don't want those 
posts, we want these. So move the people around, change the 
classifications. And it took some time to get all of that 
properly documented and up to speed and properly invoiced.
    The audit we conducted, we found that approximately 75 
percent of any discrepancy occurred in the first 4 months of 
the contract. And we have a good process control documentation 
system now so that that does not occur again.
    Ms. Duckworth. Thank you.
    Ambassador Hays, I'd like to know the IG's view of the 
status of the outstanding findings, particularly with respect 
to those questions costs. Would you have a schedule--a follow 
up with the appropriate officials in the inspector general's 
office just to make sure that those fixes have taken place?
    Mr. Hays. Certainly.
    Ms. Duckworth. And do you have any opinion on whether or 
not you think that those problems have been fixed and that the 
processes in place now are adequate?
    Mr. Hays. I conducted the inspection of the facilities in 
February of 2014. I did not participate in the audit nor the 
compliance of that, but I can certainly pass on your concerns 
to the IG himself, and he will get back to you.
    Ms. Duckworth. Great. Thank you.
    I'm out of time. I yield back, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from Wisconsin, Mr. Grothman, 
for 5 minutes.
    Mr. Grothman. Thank you.
    I guess this would be for Mr. Starr. I want to follow up a 
little bit on what Congressman Russell says. First of all, how 
many buildings are going to be in this compound total, about 
when we're done in Kabul?
    Ms. Muniz. So there was an existing chancery built in 1971, 
which was the starting point. Another annex building was built 
and completed in 2005 with three residential facilities. The 
2009 and 2010 projects will provide for another unclassified 
annex and another classified annex and three more residential 
buildings. In addition, security, utility and support buildings 
are also included in the scope of the project.
    Mr. Grothman. Okay. So at least ten plus. Whatever. Okay.
    How many people are going to be based in these facilities 
when you're all done?
    Ms. Muniz. The program that drove the facilities is 1,487 
desks and 800 beds.
    Mr. Grothman. Okay. So how many people----
    Ms. Muniz. So, basically, the delta is between the U.S. 
direct hire staff who sleep on the compound and those who work 
in the buildings but who don't necessarily sleep on the 
compound.
    Mr. Grothman. Okay. So we say--how many total people, say, 
are based or work in the compound by the time we're done?
    Ms. Muniz. Let me turn that over to Jarrett and to Greg. 
OBO builds to the sort of hard facility requirements, but there 
are many support workers and security who don't have desks in 
the facilities but who work around the compound. So for a 
comprehensive number, I would turn to them.
    Mr. Grothman. Sure.
    Mr. Blanc. So, you know, in broad terms, there are going to 
be about 5,000 people on the compound between direct hires and 
contract support staff, including security staff. There are 
some ambiguities in this still because there are still planning 
decisions being made about the future Security Cooperation 
Office and other agencies that will come under the Embassy 
umbrella.
    Mr. Grothman. This kind of hits me as high. That's all.
    Of those 5,000, how many are Afghans themselves?
    Mr. Blanc. I don't have the local----
    Mr. Grothman. I mean, guess wildly. I don't expect you to--
--
    Mr. Blanc. About 850, 900.
    Mr. Grothman. Okay. So about a fifth, a little under that. 
Could we get, and you don't have it right away today, but just 
because it hits me as a high number, what do these people do?
    Mr. Blanc. Sir, we can provide that. What I can tell you is 
that it's the smaller portion that are direct hire U.S. staff, 
who are doing what we think of as the work of diplomacy. The 
larger portion are people who are necessary to support that 
staff, given the very unique circumstances in Kabul, whether 
that's the security staff that Greg oversees or the life 
support staff, especially as the military mission draws down, 
and we lose some of the services that the Department of Defense 
has provided, need to provide them for ourselves, services that 
just, to be blunt, you can't--the Embassy can't rely on the 
economy to provide, it has to provide for itself.
    Mr. Grothman. Okay. Of the 5,000, how many are military 
personnel?
    Mr. Blanc. So, right now, of the 5,000, the number is 
pretty small. That number is likely to increase over the out 
years because as the military mission changes, there will be a 
Security Cooperation Office that will eventually be part of the 
Embassy that will oversee our security--the assistance that we 
provide the Afghan National Security Forces.
    Mr. Grothman. Okay.
    Mr. Blanc. Those are decisions that are being made right 
now, and I can't really tell you how they'll come out.
    Mr. Grothman. Okay. Just to guess wildly, you told me there 
were 5,000 total, you said a relatively small amount of 
military personnel. What does that mean? 100, 200, 300? Just 
guess wildly.
    Mr. Blanc. Maybe 100.
    Mr. Grothman. Maybe 100. So we have almost 5,000 civilian 
personnel that we anticipate having in Afghanistan? Is that the 
deal?
    Mr. Blanc. So, again, you're combining what's the case 
right now and what will be the case over time. Over time, I 
expect that military number will be a larger percentage because 
of the Security Cooperation Office.
    Mr. Grothman. Okay. Okay. Then we have a question for--I 
guess I'm running out of time. Well, was a risk assessment done 
at the Kabul site, and if it wasn't, why not? That's the final 
question.
    Ms. Muniz. Risk assessments are always done before the 
award of a large-scale project. So our team goes out and 
understands with the contractor what are the risks that we 
might encounter.
    A formal risk assessment, sort of the way we lay it out as 
a separate assessment was not done in the 2009 project, was 
done in 2010, but I would argue that in all cases, we are 
assessing the situation and know what the major risks are, and 
those here included the security situation, growing staff, a 
changing environment, but those were known at the time of the 
award of the 2009 contract.
    Mr. Grothman. Okay. My time is up.
    Mr. Blanc. Sir, if I may just to correct. I'm being told 
that the correct number for current military personnel is 
closer to 50, between the liaison for the Embassy and the 
residence support mission and the Marine force.
    Mr. Grothman. You said total number is what?
    Mr. Blanc. It's closer to 50 than 100.
    Mr. Grothman. Fifty, 50?
    Mr. Blanc. Five zero.
    Mr. Grothman. Okay. Thank you.
    Chairman Chaffetz. To clarify, page 16 of the GAO report 
says, between the 2009 contract and the 2010 contract, State 
should have conducted four cost-containment studies and six 
risk assessments. However, for the 2009 contract, State 
confirmed it did not conduct either types of assessment. 
Because of the value of the 2009 contract, which was $209 
million, two separate cost-containment studies would have been 
required. Also, no risk assessments were performed and no risk-
mitigation plan was developed.
    So your answer's a little shy of the reality, at least 
according to the GAO, correct?
    Ms. Muniz. I would argue that--the policy that the GAO is 
referring to and the sort of narrow interpretation of a 
separate risk assessment being conducted during or before award 
of a project, that is true. But risk assessment when you look 
at it on its face is going to the post; understanding what the 
risks are. How are you going to get materials in? Are there 
changing situations on the ground that are going to impact your 
project? Those are all things that are analyzed and that are 
known and that are included in the cost development for these 
projects. And that was done with the 2009 project, but 
understand that the budget for the 2009 project was developed 
in advance of knowing that there was going to be a significant 
increase in staff, that the border with Pakistan was going to 
be closed for 7 months, and any number of other issues that 
I've outlined in my testimony.
    Chairman Chaffetz. Mr. Courts, is that what happened?
    Mr. Courts. Well, I would again just point out that the 
risk-assessment and cost-containment study that they did in 
2010 did point out some of the risks that eventually 
materialized. And by the way, one of those was difficulties 
with the land transport of materials, so some of these risks 
were known in advance. They predicted them in the 2010 study. 
If they had done the 2009 study, perhaps they would have had 
more time to try to develop some mitigation strategies.
    Chairman Chaffetz. And part of the----
    Ms. Muniz. And perhaps we would have delayed award of a 
contract that is getting people into safe facilities as quickly 
as possible.
    Chairman Chaffetz. They're not safe. That's the point. They 
weren't safe, and now they're way over budget. We're missing by 
hundreds of millions of dollars. The overall project is coming 
in 3 years late. It was supposed to be done last year, and now 
it's not supposed to be done until 2017. So what's the case to 
be made that you've made this huge progress by bypassing all 
the bureaucracy, you put people in a better situation because 
you've got two independent people who have come in and looked 
at that and, I think, disagree with that analysis?
    And in regards to the security, on page 17 of the report, 
DS officials were not sufficiently involved in the cost-
containment study, and it goes on for a full paragraph. That's 
the frustration. Just reading this, this is why we're having a 
hearing, you would get the impression that you're not even 
talking to the Diplomatic Security. And we addressed that a 
little bit earlier, but that should be part of before you do 
2009. It should have been part of 2010, but that evidently 
wasn't done according to the report. Am I wrong?
    Ms. Muniz. I believe you are.
    Chairman Chaffetz. Well, this is why we have this hearing. 
DS cited--this is from the report. DS is cited in the policy as 
an interested office. According to the attendee delist, no one 
from Diplomatic Security participated in the meetings related 
to the study.
    You have a pretty hard case to make that you were taking 
security at the top of your list and putting it in there when 
they weren't even invited into the meeting.
    Ms. Muniz. They were invited to the meeting. We can prove--
--
    Chairman Chaffetz. So they were no shows? Mr. Starr, did 
your staff not--they just said, Forget it, I'm not showing up, 
not worth our time?
    Mr. Starr. Congressman, I think our people decided that 
the--at that--that one particular meeting, that there weren't 
equities that we were necessary to be there.
    I want to emphasize something, though, sir. And I know that 
there are individual points that can be brought out and looked 
at by both IG and GAO, and in many cases. They bring very 
important things to our attention, and we correct those things. 
But I don't want to leave you with the impression that DS and 
OBO don't work together very closely to ensure that the 
physical security standards in our buildings are always----
    Chairman Chaffetz. She just said that your people don't 
show up at her meetings.
    Mr. Starr. At one particular meeting on----
    Chairman Chaffetz. That's not what this says. That's not 
what this says. I didn't just come make this up. I didn't just 
come say: Hey, let's pick on State. I'm reading a GAO report 
that pretty much concurs with what the inspector general found. 
And the reality is it's 27 percent over budget. You missed it 
by hundreds of millions of dollars. You've got facilities that 
aren't secure. There's no master plan. There's no plan for 
temporary facilities. And it's the biggest expenditure we have 
in an embassy compound complex that we've ever had in the 
history of the United States of America. So you have a really 
hard case to tell me that we're doing things better and 
everything's good, just move on, nothing to worry about here. 
That's a $2 billion expenditure, and it's not yet finished.
    Mr. Starr. Mr. Chairman, I would disagree with your 
characterization somewhat, but in certain cases----
    Chairman Chaffetz. Which one?
    Mr. Starr. --you're right. This one----
    Chairman Chaffetz. Which part? Tell me.
    Mr. Starr. This is certainly a very expensive project, it's 
very large, but----
    Chairman Chaffetz. Tell me what you disagree with.
    Mr. Starr. That we are not providing safe and secure 
facilities. It is true that they are behind the original 
schedule, but we are building safe and secure facilities. 
During the entire time that we were there in our temporary 
facilities, we have never lost a person on our compound even 
with the temporary facilities, and we're building better ones 
today.
    Can our coordination be improved? Yes. The IG and the GAO 
pointed out that there were problems, and Lydia and I have 
worked to ensure that those problems don't continue. There is 
always room for improvement. And I, quite frankly, would wish 
that we could have brought these projects in faster because 
moving the people out of temporary facilities faster gives them 
even better protection. We've been responsible for providing 
that protection during this entire time. And I think we've done 
a very good job, but none of us minimize the problems that have 
occurred in this environment as we try to struggle to bring 
these buildings in.
    But I will tell you that, you know, while we appreciate GAO 
and IG, and they do bring a lot of good things to our 
attention, not everything can be characterized as off base 
here. We are delivering, although you are correct, it is behind 
schedule, and it is over the budget.
    Chairman Chaffetz. I now recognize the gentleman from 
Oklahoma, Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman.
    And, Ms. Muniz, I wanted to make a correction. It was Mr. 
Hays in his testimony that spoke about the international 
construction and safety standards and that this was causing 
some unnecessary delays between OBO and State.
    And so I would like to ask you, Mr. Hays, you spoke to 
these international construction and safety standards causing 
these delays. What were those?
    Mr. Hays. Well, the international standards for 
construction, which OBO works to and has to work to because of 
legislation, are the same that you would apply to Embassy 
Berlin or a building in downtown D.C. They require a building 
to be built in a way that is safe and sound for a longer period 
of time.
    The DOD regulations authorize more flexibility, especially 
in war zones. And we raised the issue that OBO and DS should 
look into the Department as a whole, look to find more 
flexibility to move quicker in war zone situations more 
expeditiously. DOD has that authority. They have a workaround 
for a number of international standards for specific areas like 
Iraq and Afghanistan.
    Mr. Russell. Thank you.
    Mr. Blanc, you spoke of land route delays, and I can 
certainly appreciate what a closed Pakistani border does to 
American anything or international anything in Afghanistan. 
What, though, if we should have something like this that 
happens again with such a large footprint now? Can you foresee 
a time where we would need to reduce a footprint and be 
streamlined to be more effective because now we have these 
5,500 personnel? And if this happens again, which it's not 
unlikely and certainly those routes get interdicted, what do we 
do about that?
    Mr. Blanc. Well, sir, I think if I can say two things. 
First of all, even during the interdiction of those routes, 
both the diplomatic and the military mission were able to 
continue, using a whole variety of creative logistics. And I 
think that in the unfortunate instance this happened again, 
obviously working very hard on our relationship with Pakistan 
to prevent it, we would again fall back on some creative 
logistics.
    I think your question in principle, are there conditions 
under which we would look to draw down diplomatic mission in 
Kabul, the answer is, of course, but we are always looking at a 
whole variety of questions, the immediate security situation, 
how effective is the team being, what specific needs do we need 
to fill either in the sort of professional Diplomatic Service 
or what we no longer need to contract, what might we be able to 
do on the economy in Afghanistan. Those are all questions that 
we address on a literal----
    Mr. Russell. And I don't--I certainly don't underestimate 
the complexities of the problems. I guess my concern is we're 
seeing a pattern. We're seeing a pattern where we've become so 
cumbersome with it. It becomes cumbersome to get things there. 
It becomes cumbersome to secure things. It becomes 
extraordinarily expensive. It wastes resources, and I just 
would think that a nation of 31 million souls with the types of 
problems that we have, that we can be efficient, but I'm not 
hearing that. Instead what I'm hearing is, and particularly 
from Mr. Starr, which--look, everyone at this table, I have no 
doubt, is dedicated to this Nation. I mean, look at your 
resumes: They're not only impressive, but they're long-serving, 
and I have the highest respect for all of you, and you've done 
it from administration to administration, and for that, I 
sincerely thank you. But I guess my--the pattern that we are 
seeing now is just an increasing infrastructure where it just 
grows and grows and grows, and it requires more security and 
more security and more security.
    And the last question that I have is for Mr. Gulino. I have 
no doubt of the ability of the Gurkhas to win almost any fight 
that they're ever encountered in. Language barriers. You know, 
we've seen the posters. Got all of that. In a no-kidding combat 
situation, you've got an American compound and now you've got 
Gurkhas. How are you mitigating that?
    Mr. Gulino. In the first place, we have well over 400 
U.S.--I didn't mean to imply by any means, I don't think I 
did--that we have a Gurkha workforce. We have 600 Gurkhas, you 
are quite right. They are selected from a wide pool of----
    Mr. Russell. No, I get that. But how are you mitigating the 
language barriers in a combat environment?
    Mr. Gulino. And they are vetted for language in Nepal 
first. And then when they go through training in Jordan, in 
Amman, Jordan, at KASOTC training, we don't just train them and 
test their skills with weapons. We test their language 
understanding and their ability to speak English.
    Mr. Russell. So all of these Gurkhas then are English 
speaking or have understanding?
    Mr. Gulino. Yes, sir. Yes, sir.
    Mr. Russell. So why do we need posters then?
    Mr. Gulino. Why do we need what?
    Mr. Russell. Why do we need Nepalese posters? If they are 
all proficient in the English language, then why was this an 
issue?
    Mr. Gulino. Well, let me just say this. It is a 
requirement, and not every Nepalese Gurkha on our post can read 
The Washington Post either from first page to the back page.
    I think that as a matter of policy and procedure and human 
rights we should have the posting of passports in Nepali. I 
don't question for a minute we should have had it from day one. 
We have it now and we will going forward. Anything that we 
communicate to the Nepalese, we do it both in English, as well 
as the Nepalese, including their contracts, their employment 
contracts.
    Mr. Russell. I thank the chairman for additional time, and 
I yield back.
    Chairman Chaffetz. Thank you.
    I now recognize Mr. Cummings for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Courts, I would like to discuss GAO's examination of 
two construction contracts at the Kabul Embassy. The first was 
awarded in 2009. The second was awarded in 2010 to a different 
contractor. Is that correct?
    Mr. Courts. That's correct.
    Mr. Cummings. Can you briefly describe the two sets of 
projects that were contracted and their originally estimated 
completion dates?
    Mr. Courts. I believe that the 2009 contract was intended 
to construct a number of temporary offices and housing. It was 
also intended to construct an office annex, the unclassified 
facility that my State colleagues have referred to, as well as 
some additional warehouses, some compound access facilities, 
some perimeter security features, and other things.
    In the end that contractor ended up building mostly just 
the temporary offices and housing, and the rest of those 
requirements were transferred to the 2010 contractor.
    Mr. Cummings. Now, what about completion dates? What were 
the projected completion dates on the projects?
    Mr. Courts. I don't have the projected completion date for 
the 2009 contract at my fingertips.
    Mr. Cummings. Okay.
    Director Muniz, according to GAO's report, in 2011 the 
State Department partially terminated the 2009 contract, and I 
quote, ``in part due to concerns about contractor performance 
and schedule delays,'' end of quote. Can you please explain 
exactly the concerns were, what they were, and why was the 
contractors--why were they terminated and what was the 
performance issue and schedule delays?
    Ms. Muniz. So the contract included both temporary 
facilities and permanent facilities, and we knew that there was 
a follow-on contract that would be building on that base and 
adding permanent facilities.
    We had concerns that the first contractor was not meeting 
key milestones and would not be able to meet their original 
schedule, which was the end of 2012, in a way that didn't 
interfere with the execution of the fiscal year 2010 contract. 
So the government terminated that contract for convenience.
    Mr. Cummings. And have you experienced challenges 
terminating this contract or other contracts due to contractor 
delays?
    Ms. Muniz. We do. It's a challenging circumstance. So we 
want to require contractors to perform and we want to encourage 
them to have a track record of serious performance. It's 
actually under the Excellence initiative, one of the things 
that we've pushed is going to best-value awards as opposed to 
lowest cost, because we can hold contractors accountable based 
on past performance.
    It's complicated and we always weigh a termination and the 
length of restarting with trying to push through with current 
contractors. In the instance of the 2009 contract, without 
going too much into it, we just had concerns that in the much 
longer term it was going to become a challenge for our 2010 
contract and we realized that it would be most effective to 
terminate it with just the temporary facilities built and 
transfer the permanent facilities to the 2010 contract.
    Mr. Cummings. Now, Mr. Courts, according to GAO's report, 
the rest of the contract was shifted to the second contractor 
who was working on the 2010 contract at that point. Is that 
correct?
    Mr. Courts. That's correct.
    Mr. Cummings. Your report also reveals that the estimated 
completion date of the expanded 2010 contract has been pushed 
out more than 3 years, until 2017.
    Mr. Courts. That's correct.
    Mr. Cummings. Mr. Courts, would it be accurate to say that 
part of this additional 3 years is due to the termination of 
one of the contractors and the subsequent transfer of the 
remaining contract elements to another?
    Mr. Courts. I don't think there is any doubt that that 
probably did add time, yes.
    Mr. Cummings. And your report also mentioned additional 
contract modifications. Were all of these modifications new or 
did some have to do with the prior 2009 contract?
    Mr. Courts. I believe there was a mix of both.
    Mr. Cummings. Are you familiar with this, Ms. Muniz? Would 
you know that answer?
    Ms. Muniz. Which modification?
    Mr. Cummings. I guess this would be the 2009 contract. Then 
they had some modifications to that. Would that have been the 
contract, Mr. Courts, the 2009 modifications, is that right?
    Mr. Courts. Both the 2009 and the 2010 contract had 
modifications.
    Mr. Cummings. Okay.
    Ms. Muniz. That's accurate.
    Mr. Cummings. Okay.
    Ms. Muniz. Both had significant modifications. Those were--
--
    Mr. Cummings. And how did those modifications come about? 
What happens?
    Ms. Muniz. I was just going to answer that. Those were due 
to the increase in desk requirements. And again, this is driven 
by national security priorities and the increase in staff. I 
would turn to Jarrett.
    Mr. Cummings. Well, I'm going to--unfortunately, I'm going 
to have to get to another meeting, but I just--I think there 
are a lot of concerns here.
    And I go back to something that Mr. Duncan said. And maybe 
you all can answer this for me, because I think he said 
something that just seems to be so accurate. He questioned, 
what is the incentive for saving money? Do we have any, Mr. 
Courts?
    In other words, it seems like we spend and spend and spend, 
and the chairman has been very clear that we haven't--that we 
probably could do better. So what is the incentive?
    And I have got to ask you this, Mr. Gulino. I'm going to 
take one out of the--the chairman and I were just talking about 
this. What do you pay these nationals, by the way?
    Mr. Gulino. Salaries for the----
    Mr. Cummings. Yeah, the nationals. You know, the ones that 
you hold the passports up for. Those, those folks, Nepal.
    Mr. Gulino. Oh, third-country nationals. They are paid in 
the $40,000 to $50,000 range a year.
    Mr. Cummings. $40,000 to $50,000?
    Mr. Gulino. Yes, sir.
    Mr. Cummings. That's quite a bit of money for somebody over 
there, isn't it?
    Mr. Gulino. I think it's competitive with the requirement 
for the----
    Mr. Cummings. No, I mean, I'm glad to hear that and I would 
like for you to get us some verification. I would like to see 
the documentation. Do you have contracts with these people?
    Mr. Gulino. Yes, I will send documentation. I will get back 
to you on that to confirm the rates.
    Mr. Cummings. And do they have benefits?
    Mr. Gulino. They have insurance benefits, yes. They get a 
bonus payment. At the end of their 1-year contract, they get a 
bonus payment.
    Mr. Cummings. And are they doing the same types of jobs as 
other folks who are not nationals?
    Mr. Gulino. Yes, sir.
    Mr. Cummings. And you're telling me that the rates would be 
the same, comparable for people who are doing the same work, 
whether they are nationals or not? Is that what you're telling 
me?
    Mr. Gulino. The rates are different for expatriates. For 
U.S. performing similar types of work are slightly higher. 
Because it's a market-driven thing. We can't hire U.S. 
personnel.
    Mr. Cummings. I understand that. But I'm trying to make 
sure--I'm just trying to figure out what you are paying. And I 
guess if you're using our dollars, which you are----
    Mr. Gulino. Right.
    Mr. Cummings. --I'm trying to make sure you--I want to know 
what you're paying. And I want to know--I want detailed 
information about that.
    Mr. Gulino. Sure.
    Mr. Cummings. Can you get me that?
    Mr. Gulino. I would be happy to have our staff provide that 
to you.
    But the premise is this: If you don't need to hire all U.S. 
personnel and you can use fully qualified third-country 
nationals that operate in the same post, same kinds of jobs 
with weapons, you use those and it drives the cost down.
    Mr. Cummings. Yeah, I understand that, but I'm also 
concerned, I'm trying to make sure we don't have a situation 
where we've got people making peanuts----
    Mr. Gulino. We don't.
    Mr. Cummings. Yeah.
    Mr. Gulino. No, sir, we don't.
    Mr. Cummings. And let me finish. And then we've got 
contractors, stockholders, and others who are making millions. 
And I just want to make sure we--I read all of--I read your 
statement and you talked about reputation, integrity, 
compliance, and all this kind of thing, and that's good. But I 
want to see some records as to what you're paying these people. 
All right?
    Mr. Gulino. Yes, sir, we'll provide that.
    Mr. Cummings. All right, thank you very much.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I've got to wrap up with a few different questions and then 
we will conclude this hearing. I appreciate your patience. You 
have been here a long time.
    Mr. Hays, part of what Mr. Cummings and I have discussed 
and we will formalize is we are going to request of you that we 
look at the contracts, really around the globe. I'm not 
suggesting we do each and every market, but find a way to look 
at how these security contracts work for the security. It plays 
such a vital role and we have had some feedback in some 
countries that these people are not being paid very well.
    I'm not suggesting that is at all the case with Aegis. I'm 
not suggesting that at all. I'm just saying, we would like to 
look at it and feel more comfortable with it. And we will 
formalize something with you.
    There are two recommendations in the draft report where 
there seems to be a bit of conflict, and I'd like to clarify 
that, and if there's still conflict, there's still conflict. 
But recommendation 2 on page 50 says: ``GAO recommends the 
Secretary of State consider establishing minimum security 
standards or other guidance for the construction of temporary 
structures, especially those used in conflict environments.'' 
Second sentence of the response from State says: ``DS''--
Diplomatic Security--``does not support separate standards for 
temporary structures.'' Why not?
    Mr. Starr. It's still a disagreement, sir. We still 
maintain that our goal is to try to meet the permanent 
standards, the highest-level standards, as best we can. And if 
we can't, then we have to look at what risk that entails. We 
may have to give exceptions or waivers. But it is our goal to 
try in those situations to meet the highest-level security 
standard we can.
    Chairman Chaffetz. And, Mr. Courts, why did you make that 
recommendation?
    Mr. Courts. Well, let's just point to the OSPB standards 
that Mr. Starr referred to as sort of the goal that they are 
trying to achieve. In reality, the only buildings that can 
actually meet those standards are permanent structures.
    They do have the waivers and exceptions process that Mr. 
Starr referred to. That's supposed to be a process where 
mitigation strategies are proposed and considered as a 
condition for granting the waiver, and then a very conscious 
and explicit acceptance of the risk, considering all of those 
factors.
    In actual practice, we found that State doesn't always 
follow that policy, and in fact we found a number of instances 
in Kabul with temporary facilities that did not have those 
required waivers. So that process that was just described 
wasn't followed there.
    So we think something is not working. And establishing some 
sort of standards--State is really uncomfortable with the word 
``standards'' or other guidance, and they propose, perhaps, 
some sort of template or some sort of lessons learned document 
that takes lessons learned from the experience that we have 
already had in Kabul and perhaps provide some information to 
those that are procuring temporary facilities in conflict 
environments in the future. And we think if they follow through 
on that, they could perhaps meet the intent of our 
recommendation.
    Chairman Chaffetz. And I think part of the concern, at 
least my concern, is that many of these temporary facilities 
end up being not so temporary--I mean, many of these are there 
for close to a decade, if not longer--and that it is much more 
convenient, it's a lot easier, a lot less paperwork to just 
deem it a temporary facility. Therefore, you don't have to 
comply with all these other standards.
    And so I think this is part of the problem that we got 
ourselves in Libya. This is part of the problem that I see in 
some of these other places. And granted, they are very 
difficult, tightly configured situations.
    But to say that there ought to be some sort of minimum 
standard or guidance or--it's just--it seems like a reasonable 
request. We are not solving that here, but it's something 
that's on our radar and that we do need to solve.
    On page 51, recommendation 3, develop--we may have 
exhausted this--but ``develop a Kabul strategic facilities 
plan. Such a plan should comprehensively outline existing 
facilities''--and we will go through this as we give the staff 
briefing.
    So I appreciate you doing that. I don't have another 
question about that.
    And, Director, have you issued any official policies or 
directives related to OBO's use of Design Excellence?
    Ms. Muniz. We've revised many, many of our P&PDs, our 
policies and procedures, to reflect our trying to do work in 
different ways; again, to include doing best-value awards as 
opposed to lowest cost when appropriate. I believe that we have 
revised in probably the last 2 or 3 years over 30 P&PDs. We 
could get you exact numbers on those and in which ways they 
have been----
    Chairman Chaffetz. I guess if you have issued directives 
related to Design Excellence, is it reasonable by the August 9 
meeting that you would provide us that--I mean, I'm hoping this 
is just a photocopying exercise. This is not--I'm not asking 
you to create anything new. I'm just trying to get a snapshot 
of where are you at right now here today.
    Ms. Muniz. So I guess what I would say is because in my 
mind excellence is just a way of approaching our work and 
always trying to do our work in the best way we can, there 
isn't one policy written about excellence. It sort of permeates 
through all of our policies. So if the request is for a copy of 
all of our----
    Chairman Chaffetz. I guess I'm looking at----
    Ms. Muniz. --revised policies, we can get back to you on 
that.
    Chairman Chaffetz. We had standard embassy design, which is 
something that was put forward by Secretary Powell.
    Ms. Muniz. Yes.
    Chairman Chaffetz. Design Excellence was changed by 
Secretary Clinton. There was a new direction, a new approach, a 
new--it's new, it's different. But what we haven't seen is what 
is that directive? What is that plan? What is that strategy? 
I've seen bits and parts of it, but it's not just some 
nebulous: Hey, this is just a theory, we want to be great in 
everything we do. It was a concerted effort to change the way 
we were building embassies into a new Design Excellence plan.
    Ms. Muniz. Absolutely. So when you ask is there one policy 
that reflects that, I could give you general documents that 
highlight what the Excellence program is. We could go to all of 
the policies and procedures that have been changed to reflect 
that. We could go to the standards, which are basically a 
flexible set of standards that we provide all of our architects 
and engineers to say these are the base requirements that you 
need to meet in all of our buildings, and put our buildings 
together like a kit of parts.
    So we could give you many documents. I think you have 
requested many of those already, and we are in the process of 
giving those. So I'm happy, again, to have our folks work with 
yours and to prioritize the list of things that you are asking 
for and to make sure you get every single thing that you are 
asking for.
    Chairman Chaffetz. And this is sort of the recurring theme 
here. I mean, we're asking for what was the plan for Kabul, and 
there wasn't one. And what is the plan for Design Excellence as 
opposed to standard embassy design, which was pretty clearly 
defined. I mean, I think we have four different reports that 
say----
    Ms. Muniz. There are plans for both, and we can provide you 
documents for all of those things if we haven't already.
    Chairman Chaffetz. That would be great, because we have 
been asking for a long period of time and we still haven't 
gotten to that point where you could say: All right, now, based 
on this, you should be able to understand everything we are 
doing with Design Excellence. That's what we are trying to get 
to. That's why we keep asking. That's the goal. But I need your 
help in getting to that point. So I appreciate it.
    Ms. Muniz. Understood.
    Chairman Chaffetz. Okay.
    Mr. Starr, you're involved in the construction of the new 
embassy compound in Jakarta, Indonesia, correct?
    Mr. Starr. Yes.
    Chairman Chaffetz. Have you conducted any physical blast 
testing for the facade or the outside of the Jakarta Embassy?
    Mr. Starr. Not on that particular one. We have done 
extensive blast testing on facades and glass facades and the 
way to--and what levels they will meet. I am confident that 
that building meets and actually exceeds our blast standards.
    Chairman Chaffetz. But it has been the practice to do an 
actual blast test on the facade that would be there in Jakarta?
    Mr. Starr. No. In that case, it was within the design 
engineering parameters that the blast engineers felt 
comfortable that looking and reviewing the drawings, they said: 
Yes, this meets the parameters.
    We did blast testing on the London design because these 
were very large and a different type of design, but the 
parameters on Jakarta fell within what the engineers were very 
comfortable with. Very experienced blast engineers. And they 
are confident, absolutely, that it exceeds our blast 
requirements.
    Chairman Chaffetz. And can you provide us that 
documentation?
    Mr. Starr. Yes, I think we can.
    Chairman Chaffetz. It is my understanding that we actually 
conduct actual blast testing. You are telling me the reason, 
the exact same materials, configuration, wall or facade that 
has been used other places, that has gone through the actual 
physical testing. In other words, is there anything different 
about this facade or wall that is--that has not been used 
before previously?
    Ms. Muniz. So let me take part of that question, and then 
we will turn it back to Greg.
    So the curtain wall in--the curtain wall used in Jakarta is 
not dissimilar to the curtain wall used in London to the degree 
that those are curtain walls that have what we call an open 
bite. As you know, there were tests performed on the London 
Embassy and the performance in those tests went very well.
    Chairman Chaffetz. But there were several times where it 
did fail, correct?
    Ms. Muniz. No.
    Chairman Chaffetz. You're telling me they didn't do any 
tests where they failed?
    Ms. Muniz. I'm telling you there was one full-scale blast 
test and it passed.
    Chairman Chaffetz. But there were previous tests on that 
wall that failed.
    Ms. Muniz. There were component tests that were derived to 
provide information for the final blast test, but there was one 
blast test of the full curtain wall and it passed.
    Chairman Chaffetz. Okay. That's not my understanding of it. 
I mean, I think we actually have video of it. And so be careful 
there. But I don't believe that the original tests that were 
done on the blast wall in London passed.
    Ms. Muniz. There was one full-scale test of the curtain 
wall in London and it passed, and it passed with flying colors.
    Chairman Chaffetz. Are you using the exact same wall in 
Jakarta?
    Ms. Muniz. We are not using the exact same wall. But when 
you test, it is a similar--there are variations on the same 
system. And once DS was comfortable that the open bite system, 
which has been used for years in private industry, but not to 
the security standards that the Department uses, when they were 
comfortable from the results of the London test that this 
solution worked, they accepted the calculations.
    Many of these performance standards are met by calculation 
and by engineers who have done this for years. DS and the 
engineers who designed the curtain wall were comfortable that 
the curtain wall met all of the standards.
    Mr. Starr. Sir, we have done a tremendous amount of blast 
testing over the years, and one of the things we do is test to 
find out what works and what doesn't work. And in early stages 
we often find things that don't work and then we correct them. 
And then we eventually get to the point where we think we have 
got a high level of confidence, and then we did the large-scale 
test of all of the panels, and then that passed.
    So failure at an earlier stage in blast testing gives us 
the information to make the corrections and do the right things 
so when we get to that engineering point we know we have a 
product that works.
    Chairman Chaffetz. And so how would you categorize where 
we're at with Jakarta and its blast wall?
    Mr. Starr. Sir, we wrote a certification to Congress. Any 
time we build a building we tell you that that building is 
going to meet or exceed the security standards and be safe and 
secure for our people, our national security activities, and 
our information. And we sent that certification to Congress, 
and that building will pass everything.
    Chairman Chaffetz. For the one in Jakarta?
    Mr. Starr. Yes.
    Chairman Chaffetz. And, Ms. Muniz, is the embassy currently 
in Jakarta currently scheduled to be delivered as it's 
originally scheduled, or if it is not due to come in on time, 
when will it be done?
    Ms. Muniz. Right now our contract completion is 2017. As 
you might know, Jakarta was built on an existing Embassy 
compound. So we were working with a very tight site, had a 
multiphased project where the first phase had to--was to move 
most of the Embassy function off the compound to allow for the 
construction of the full Embassy. We encountered some 
difficulties with the contractor in that first phase which has 
delayed this later phase. We are working with the current 
contractor, who is a very strong contractor, through the 
project to see what time can be made up for. But right now 
there are no final adjustments to the project's schedule.
    Chairman Chaffetz. So it will be on time, or you think it 
might be delayed but you just don't have a date yet?
    Ms. Muniz. I think it might be delayed, as I said, because 
of the performance----
    Chairman Chaffetz. But you don't know.
    Ms. Muniz. --of the first phase contractor, but we don't 
have a date finalized. But when we do contractually, we can 
provide it.
    Chairman Chaffetz. And how is it compared to the original 
budget?
    Ms. Muniz. To my knowledge, right now we are on budget.
    Chairman Chaffetz. Are there any anticipated requests from 
the contractor for additional money to complete the Jakarta 
facility?
    Ms. Muniz. I would say, until a project is completed we 
always anticipate that there will be requests for equitable 
adjustments from contractors for any number of issues, to 
include the issue with the first phase delays.
    So I would say that we expect them, like we do on any 
project, and we work through them. We manage to our budgets to 
the best that we can, to include beginning to cut things out of 
the budget of the existing building. So that's just an ongoing 
process of managing just to the budget.
    Chairman Chaffetz. So are you aware of any upcoming 
requests for additional money to build and finish the Jakarta 
Embassy?
    Ms. Muniz. I believe I already answered your question but I 
could answer it again. Like with any contract, we expect 
through the life of the contract----
    Chairman Chaffetz. No, I'm asking if you have any direct 
knowledge that they are about to ask you for a lot of 
additional money. Do you or do you not?
    Ms. Muniz. I don't.
    Chairman Chaffetz. Do you, Mr. Starr?
    Mr. Starr. No, I certainly don't.
    Chairman Chaffetz. I want to ask you just one more time. 
The contractor indicated any intention to request an equitable 
adjustment?
    Ms. Muniz.
    Ms. Muniz. I've answered this question a number of times.
    Chairman Chaffetz. I'm going to ask you, because I 
obviously know something about this. And I want you to be 
direct and complete with--you act as if it's your money and 
it's not. There is going to be some sort of consequence here. 
There is obviously a lot of information that I have at my 
disposal.
    And I want to know if you are going to be truthful and 
honest with us because you have yet to show or demonstrate to 
the United States Congress that you can produce a project on 
budget, on time, that is safe and secure. It hasn't happened. 
We keep seeing overrun after overrun after overrun, Mexico 
City, Jakarta, Mozambique, Zimbabwe, Port Moresby, Jakarta. The 
list is pretty long. London.
    Ms. Muniz. Congressman Chaffetz, I can go through every one 
of--if you want to have another hearing on the Excellence 
initiative----
    Chairman Chaffetz. Oh, we are going to. You are going to be 
a regular visitor up here.
    Ms. Muniz. I'm happy to do that.
    Chairman Chaffetz. No doubt about it.
    Ms. Muniz. I'm happy to do that. I don't have all of the 
information----
    Chairman Chaffetz. Then provide us the documents that we 
ask and be forthright in your comments.
    Ms. Muniz. We have provided you over 60,000 pages of 
documents----
    Chairman Chaffetz. I want to know what percentage. I'm 
tired of the State Department telling me that they have given 
us a certain number of documents.
    We have been asking for very basic documents. For instance, 
your testimony by a certain time, which was late. Everybody 
else is on time except yours. It's just--it's unbelievable how 
you respond to us. And we are not going to continue to stand 
for that.
    You're right, we will continue to drag you up here. We'd 
rather not. We'd much rather have staff meetings and get this 
information.
    Ms. Muniz. And we have been having those staff meetings and 
we have provided a great deal of information. I'm happy to 
continue to do so.
    All of the questions and the concerns that have been raised 
about the Excellence initiative with respect to cost and to 
schedule are valid concerns. But we have answers to all of 
those.
    And I'm also happy to report that of the four Excellence 
initiative projects, or five, that you had requested, which 
ones would we say are under Excellence, all are being delivered 
on budget, on schedule. The only one delayed is because of a 
new MSG activation, and we had to extend the contract to build 
a Marine security guard quarters after the award of the initial 
contract. Everything is as it should be.
    Chairman Chaffetz. What are those four?
    Ms. Muniz. One minute.
    Vientiane, Paramaribo, Mbabane, Nouakchott, and N'Djamena.
    Chairman Chaffetz. Thank you.
    Two more questions. In Iraq, do you recall off the top of 
your head--granted, the focus of this hearing is about 
Afghanistan--the number of beds and desks built versus numbers 
of beds and desks occupied? Do you have that number or is that 
something you can provide this committee at some point?
    Ms. Muniz. I think that's something we can provide. It's 
not something I have off the top of my head.
    Chairman Chaffetz. Okay. I hope it is not a difficult ask. 
And we expect and would hope that you get that to us sooner 
rather than later.
    Chairman Chaffetz. Last question--set of questions here on 
cybersecurity. Are you aware of any network disruptions or 
cyber intrusions at the State Department that have affected 
OBO?
    Mr. Starr. Let me take this one. We have not--we have had 
network intrusions. They have not affected any of our databases 
and OBO was not affected by them. They affected our emails at 
one point, but they did not affect any of our databases or our 
systems.
    Chairman Chaffetz. Is there any indication that any systems 
containing sensitive information about our embassies' physical 
security was either viewed or compromised, extracted, or hacked 
into in any way, shape, or form?
    Mr. Starr. I'm not aware of any information to that point.
    Chairman Chaffetz. Nothing regarding your Department, Ms. 
Muniz?
    Ms. Muniz. Not that I know of. Not that I know of. We could 
go back and look and ask the appropriate people, but I'm not 
sure what you're referring to.
    Mr. Starr. Sir, through the years, and I'm going back quite 
a ways, there were incidents where some documents were 
improperly handled, security violations were handed out, and 
procedures were improved. I don't think--I don't believe there 
has been any cyber intrusions into this.
    Chairman Chaffetz. It's just over the last 12 months, 
obviously, we have had a number of issues and incidents and 
some very high-profile intrusions. We are on a regular basis 
going to be asking departments and agencies as they come up 
here if that's been affecting them in any way, shape, or form. 
It's just sort of a general question that we're going to be 
asking.
    It's been a long hearing. Thank you for your time. We do 
appreciate it. A lot of good men and women do a lot of good 
service. They care about their country. They are working hard. 
Please, we know and appreciate this.
    This is part of the process in the United States of 
America. It's what makes our country great. That's why our 
Founders, in their infinite wisdom, set this up this way. And 
that's our role and responsibility under the Constitution, and 
we are going to fulfill it.
    And we appreciate your doing your jobs. And again, we thank 
you again for your time.
    This committee stands adjourned.
    [Whereupon, at 12:32 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               
               

                                 <all>
</pre></body></html>
